<html>
<title> - DOMESTIC MINOR SEX TRAFFICKING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        DOMESTIC MINOR SEX TRAFFICKING 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 15, 2010

                               ----------                              

                           Serial No. 111-146

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov









                     DOMESTIC MINOR SEX TRAFFICKING
















                     DOMESTIC MINOR SEX TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2010

                               __________

                           Serial No. 111-146

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-250 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
MIKE QUIGLEY, Illinois
TED DEUTCH, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel























                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 15, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3
The Honorable Mike Quigley, a Representative in Congress from the 
  State of Illinois, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     4

                               WITNESSES

The Honorable Carolyn B. Maloney, a Representative in Congress 
  from the State of California
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
The Honorable Jackie Speier, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
The Honorable Linda Smith, a former Member of Congress
  Oral Testimony.................................................    26
  Prepared Statement.............................................   115
Ms. Francey Hakes, National Coordinator for Child Exploitation 
  Prevention and Interdiction, United States Department of 
  Justice, Washington, DC
  Oral Testimony.................................................   126
  Prepared Statement.............................................   129
Mr. Nicholas A. Sensley, Chief of Police, Truckee Police 
  Department, Truckee, CA
  Oral Testimony.................................................   133
  Prepared Statement.............................................   136
Mr. Ernie Allen, President and CEO, National Center for Missing 
  and Exploited Children, Alexandria, VA
  Oral Testimony.................................................   137
  Prepared Statement.............................................   141
Ms. Tina Frundt, Executive Director/Founder, Courtney's House, 
  Washington, DC
  Oral Testimony.................................................   149
  Prepared Statement.............................................   151
Ms. Suzanna Tiapula, Director, National Center for Prosecution of 
  Child Abuse, National District Attorneys Association, 
  Alexandria, VA
  Oral Testimony.................................................   155
  Prepared Statement.............................................   157
Ms. Deborah Richardson, Chief Program Officer, Women's Funding 
  Network, San Francisco, CA
  Oral Testimony.................................................   162
  Prepared Statement.............................................   164
Mr. William ``Clint'' Powell, Director, Customer Service and Law 
  Enforcement Relations, craigslist, Inc., San Francisco, CA
  Oral Testimony.................................................   168
  Prepared Statement.............................................   170
Ms. Elizabeth L. ``Liz'' McDougall, Partner, Perkins Coie, LLP, 
  Seattle, WA
  Oral Testimony.................................................   173
  Prepared Statement.............................................   177

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Linda Smith, a former Member 
  of Congress....................................................    28
Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................   233

                                APPENDIX

Material Submitted for the Hearing Record........................   241

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Document entitled New York Prevalence Study of Commercially Sexually 
    Exploited Children, Final Report, April 18, 2007. Prepared for the 
    New York State Office of Children and Family Services by WESTAT. 
    This document is available at the Subcommittee and can also be 
    accessed at:

    http://www.ocfs.state.ny.us/main/reports/csec-2007.pdf


                     DOMESTIC MINOR SEX TRAFFICKING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Jackson Lee, Waters, 
Quigley, Gohmert, Poe, and Lungren.
    Staff Present: (Majority) Liliana Coronada, (Fellow) 
Federal Public Defender Office Detailee; Ron LeGrand, Counsel; 
Veronica Eligan, Professional Staff Member; (Minority) Caroline 
Lynch, Counsel; Art Baker, FBI Detailee; and Kelsey Whitlock, 
Legislative Assistant.
    Mr. Scott. The Subcommittee will now come to order, and I 
am pleased to welcome you to today's hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security. The 
Committee is hearing domestic minor sex trafficking, and 
specifically H.R. 5575, the ``Domestic Minor Sex Trafficking 
Deterrence and Victim Support Act of 2010.''
    Today we will hear testimony about the importance of this 
bill and the issues pertaining to a situation that is not only 
difficult to comprehend but also tragic: the domestic 
commercial sexual exploitation of children, many of them United 
States citizens.
    On June 23 of this year, the gentlelady from New York Ms. 
Maloney, and the gentleman from New Jersey, Mr. Smith, 
introduced H.R. 5557, which was then referred to the Judiciary 
Committee. The bill was introduced primarily to address the 
need for a comprehensive victim-centered approach to dealing 
with sex trafficking of children in the United States and 
providing shelter and rehabilitative services tailored to the 
needs of survivors of this particular crime.
    It also authorizes block grants to provide funding to 
implement improvements to the National Crime Information Center 
system to track information about missing and exploited 
children. Funding is also provided to law enforcement to 
increase and approve investigations to prosecutors to increase 
the number of cases brought to trial, and to service providers 
to ensure that access to shelters and services tailored to the 
needs of the victims of this particular crime make sure those 
services are available.
    At the outset it is important that we understand this term, 
``domestic minor sex trafficking.'' It is child sex slavery, 
child sex trafficking, prostitution of children, commercial 
sexual exploitation of children, and rape of a child.
    In its report, ``National Report on Domestic Minor Sex 
Trafficking: America's Prostituted Children,'' the Shared Hope 
Organization explains that the term is used in an attempt to 
accurately and correctly define the nature of the offense, as 
well as the status of the minor as a victim rather than as a 
juvenile delinquent or a child prostitute or a bad kid or just 
plain criminal. We are talking about some of our most 
vulnerable victims of sex trafficking; that is, children in 
need of understanding and specialized treatment.
    We are also talking about training programs for law 
enforcement officials who encounter these children so that they 
are correctly identified and labeled as victims rather than 
criminals, and are able to receive needed social and protective 
services.
    Nationally, about 450,000 children run away from home each 
year. It is estimated that one out of three teens on the street 
will be lured into prostitution within 48 hours of leaving 
home. Statistically, this means that approximately 150,000 
children are lured into prostitution each year, although there 
are some estimates as high as almost 300,000 children per year 
who have become sexual commodities. These child victims come 
from all races, ethnic groups, and religious backgrounds. They 
come from all socioeconomic classes, are males, females, 
transgender, and span all ages, usually beginning around 12 
years of age. Many come from homes where they have been abused.
    One study concluded that 59 percent of minors arrested for 
prostitution in Las Vegas from 1994 to 2005 had been victims of 
sexual assault and molestation within the family; 74 percent 
had run away from home prior to arrest. They are runaways, 
homeless, throwaways, and children within the foster care 
system and child protective services, and they come by many, 
many different names such as those.
    During today's hearing, Representatives Maloney and Smith 
will testify about the Domestic Minor Sex Trafficking 
Deterrence and Victim Support Act of 2010, which they 
introduced to specifically address the growing problem of 
commercialized sexual exploitation of children.
    We will also hear from other distinguished Members, as well 
as a former Congresswoman who has devoted her life after 
congressional service to helping victimized children in this 
country and abroad.
    A second panel will discuss what is happening to our 
children and how they are being victimized, the demand that 
fuels the domestic and minor sex trafficking, and ways in which 
the law enforcement community is not only addressing this 
demand, but also the lessons learned that are resulting in law 
enforcement communities' progress in more accurately 
identifying and labeling these children as victims rather than 
criminals.
    We will hear from representatives of craigslist. And I am 
hoping that we will get clarification on whether the company's 
latest decision to remove the ``adult services'' section is 
permanent. I am hoping that they will shed some light on their 
future plans.
    At this time it should be clear that the ultimate issue is 
not just craigslist but, rather, the issue as to what extent 
the Internet generally plays in facilitating sex trafficking of 
minors.
    I would like to thank all of our witnesses in advance, as 
well as those organizations and individuals who have 
contributed their time, insights, and experience to our staff 
in preparation for this hearing. And most of all, I want to 
thank all of the people present for what you are doing to 
protect our children.
    It is now my pleasure to recognize the esteemed Ranking 
Member of the Subcommittee, my colleague from Texas, Judge 
Gohmert.
    Mr. Gohmert. Thank you, Chairman.
    The sex trafficking of minors is an incorrigible crime that 
often exploits children that are already at high risk and have 
often already suffered physical and/or sexual abuse. I saw that 
myself as a judge, just as I know my colleague, the former 
judge, has also.
    The response to human trafficking within the United States 
is focused on providing assistance to victims of trafficking 
and on law enforcement efforts to arrest and prosecute 
traffickers.
    In June 2003, the FBI, in conjunction with the Department 
of Justice's Child Exploitation and Obscenity Section in the 
National Center for Missing and Exploited Children, launched 
the Innocence Lost National Initiative. Their combined efforts 
are aimed at addressing the growing problem of domestic sex 
trafficking of children in the United States. The Innocence 
Lost National Initiative has resulted in approximately 38 task 
forces and working groups throughout the United States. These 
efforts bring Federal, State and local law enforcement 
agencies, including local prosecutors and social service 
providers, together for the coordination of cases and for 
training opportunities with the National Center for Missing and 
Exploited Children.
    Innocence Lost National Initiative cases usually begin as 
local operations targeting various locations, including online 
advertisements. The initial arrests are often for State or 
local charges, and it is later that the FBI and the Department 
of Justice review the case to see if the filing of Federal 
charges is appropriate.
    To be effective, the strategy should also aggressively 
address the demand side of the issue by incorporating effective 
law enforcement and prosecution initiatives that target those 
who conduct the actual trafficking and those that purchase 
commercial sex.
    The role of the State and local law enforcement authorities 
and the role of the State and local prosecutors cannot be 
underestimated. Prostitution and prostitution-related crimes 
are generally of a local nature and have historically been 
successfully investigated and prosecuted by local authorities.
    However, all law enforcement must address the interstate 
trafficking problem, which is certainly a Federal issue, but is 
just tossing kids in jail while ignoring the broader problem. 
While the goals of eliminating sex trafficking and assisting 
the State and local authorities in this effort are laudable and 
are very important, caution must be exercised so that there is 
not a gradual move toward federalization of local prostitution 
or local prostitution-related crimes. Caution must also be 
exercised to ensure that the relatively limited resources that 
are or potentially will be available to the victims of these 
crimes are spent on those that have truly been victimized.
    For instance, I am concerned about a provision in H.R. 5575 
which authorizes grant money to treat so-called ``johns'' who 
engage in sex acts with adult prostitutes in lieu of 
prosecution. We may have people come to mind who have enough 
money themselves as johns to deal with their own side of that 
issue without taking money away from young victims of the 
trafficking.
    But this is a complicated problem. Finding a solution will 
not be easy. I believe that holding this hearing is a start to 
bringing together the experts that have experience in the 
different areas that make up this problem. And we are making 
strides toward a solution.
    So I welcome all of our witnesses today, appreciate your 
being here, appreciate your diligent efforts, committed efforts 
on behalf of the victims of this crime. And I do look forward 
to hearing your testimony. Thank you very much. I yield back.
    Mr. Scott. Thank you.
    I will ask other Members, Mr. Quigley, do you have a very 
brief statement?
    Mr. Quigley. Yes. Just to accentuate what you are saying 
and draw it close to home.
    Mr. Chairman, I want to thank you for holding this hearing. 
But the offenses you describe, child sex slavery, child sex 
trafficking, prostitution of children and a rape of a child, 
among others, you would like to think or unfortunately imagine 
this would be in some Third World country, or at least not in 
nice neighborhoods. But I will tell you, you can go out into 
Lakeview, one of the nicest communities in the city of Chicago 
and the nicest areas that you would ever want to live in, you 
will see the vans out there of social service agencies trying 
to find the kids, runaway kids who are exposed to--who are 
vulnerable to these offenses right there in some of the nicest 
neighborhoods.
    So for us to imagine that the johns come from some evil 
place--unfortunately, they are from within. So the fault, dear 
Brutus, not lies within our stars but within ourselves.
    We have to look at the people who are committing these 
offenses and recognize that they are not far away. And I 
appreciate all those law enforcement agencies, social service 
agencies, and not-for-profits that try to help.
    Mr. Scott. Thank you.
    Other Members, without objection, will be able to enter 
statements into the record.
    We have two very distinguished panels with us today. Our 
first panel consists of four Members of Congress, as well as an 
esteemed former Member.
    The first witness is Congresswoman Carolyn B. Maloney, who 
represents the 14th District of New York. She is the first 
woman to represent New York's 14th Congressional District. And 
in the 111th Congress she became the first woman to chair the 
Joint Economic Committee, a joint House/Senate panel which 
examines and addresses the Nation's most pressing economic 
issues. She is a senior Member of the House Financial Services 
Committee and the House Oversight and Government Reform 
Committee, and is co-founder of the House 9/11 Commission 
Caucus. She is a lead sponsor of H.R. 5575.
    The second witness is Congresswoman Jackie Speier who 
represents the 12th District of California, first elected in 
April 2008 in a special election, after serving 18 years with 
the California State legislature, where she authored over 300 
bills signed into law by both Democratic and Republican 
Governors. She serves on three key Committees in the House: The 
Committee on Financial Services; the Committee on Oversight and 
Government Reform; and the Select Committee on Energy 
Independence and Global Warming.
    Our next witness will be Congressman Ted Poe, who was a 
prosecutor and judge in Houston for over 30 years before coming 
to Washington to represent the Second Congressional District of 
Texas. Serving as the Victims Rights Caucus founder and co-
chair, Congressman Poe has been pivotal in passing legislation 
to safeguard our children, legislation such as the Child 
Predator Act that later became the AdamWalsh Child Safety Act. 
And also he ensures the needs and issues facing the victims of 
crime are equally represented. Congressman Poe is a Member of 
the House Judiciary Committee and the House Committee on 
Government Affairs.
    Representative Chris Smith is in his 15th term of the U.S. 
House of Representatives serving the Fourth Congressional 
District of New Jersey. He currently serves as the Ranking 
Republican on three congressional panels: The Foreign Affairs 
Subcommittee on Africa and Global Health; he is also the 
Ranking Member on the Commission on Security and Cooperation in 
Europe and the Congressional Executive Commission on China. He 
is the author of America's three landmark anti-human 
trafficking laws, including the Trafficking Victims Protection 
Act of 2000, a comprehensive law designed to prevent modern-day 
slavery, protect victims, and enhance civil and criminal 
penalties against traffickers. He is the lead cosponsor of H.R. 
5575.
    And finally, on this panel, former Congresswoman Linda 
Smith who represented Washington State's Third Congressional 
District from 1994 to 1998. In the fall of 1998, while still a 
Member of Congress, she traveled to Mombai and visited one of 
the worst brothel districts in the world, where hopeless faces 
of desperate women and children forced into prostitution 
compelled her to found Shared Hope International. Through this 
organization she builds partnerships with local government 
groups to provide homes and shelters where women and children 
can live with no time limit. These villages of hope have a 
holistic approach to recovery, including education and job 
skills training.
    In 2007, Shared Hope International produced Demand, a 
report and documentary featuring investigative footage of world 
sex traffickers, pimps and buyers. That documentation found 
that startling numbers of American children are being sex 
trafficked within the U.S. borders.
    Mr. Scott. So we will begin at this time with 
Representative Maloney.

TESTIMONY OF THE HONORABLE CAROLYN B. MALONEY, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Maloney. Thank you. Thank you so much, Chairman Scott 
and Ranking Member Gohmert, for your leadership and for being 
on the frontline, battling this extremely devastating problem 
that is found right here in the backyards of American cities.
    As co-chair of the Human Trafficking Caucus, I have been 
working in a bipartisan way on these issues with Representative 
Chris Smith and many others for many years, and today's hearing 
is an important opportunity to educate people about the reality 
of the trade in human lives and work toward its elimination.
    Sex trafficking is the slavery of the 21st century. Human 
trafficking is a $10 billion industry worldwide. It is the 
third largest organized crime ring in history, preceded only by 
drugs and guns. But unlike drugs and guns which can be sold 
only once, the human body can be sold over and over and over 
again until it is destroyed. Too many people believe that child 
sex trafficking is a problem only in foreign countries, but 
experts estimate that a minimum of a 100,000 children in the 
U.S., most of whom are American citizens, are exploited through 
commercial sex every year.
    Mr. Chairman, as you know, the End Demand for Sex 
Trafficking bill and the Wilberforce bill that we both worked 
on and helped author, required that the Justice Department come 
forward with a study on the problem in the United States. We 
still have not gotten that study. We know that 400,000, 
according to the State Department study, are trafficked 
internationally. But we have no numbers on the problem that is 
growing in the United States.
    Although it is hard to believe, the average age of first 
exploitation is young girls 12 to 13 years of age. These are 
our daughters, their schoolmates, their friends. And in fact 
this past June, in Brooklyn, in New York City, 8 people were 
indicted with charges that they forced girls as young as 15 
into prostitution. These young women were recruited from local 
middle and high schools, public high schools. They were 
threatened with violence and kept out of contact with family 
and friends.
    Law enforcement in New York believes that many of the 
missing children that are reported are literally children that 
are stolen or coerced into sex trafficking. There are 
disturbing stories that come to my office about walking down 
the street and men coming up and trying to shove girls into 
cars, and they get away. But assume they were shoved in the 
car, then that girl would be one of the missing children that 
ran away.
    So I think this is a huge problem in our country, and one 
that needs to be addressed, and I thank you for looking at it 
with this important hearing.
    Despite the need, a Congressional Research Service report 
that I requested found that funding for specialized services in 
support for victims of domestic minor sex trafficking are 
extremely limited. In fact, there are studies that show that 
our country spends more on sex trafficking overseas and their 
victims than they do on the victims here in our own country. 
And their stories are horrifying.
    Throughout the country, organizations specializing in sex 
trafficking collectively have fewer than 50 beds to address the 
needs of we don't know how many victims in our country, and 
this is totally unacceptable. After hearing from former 
victims, seasoned cops, and hard-hitting prosecutors about the 
horrors of domestic minor sex trafficking, I knew something had 
to be done. And working with Senator Ron Wyden and 
Representative Smith, we have introduced H.R. 5575, the 
``Domestic Minor Sex Trafficking Deterrence and Victims Support 
Act of 2010.''
    This bill takes a multidisciplinary cooperative approach to 
shutting down child sex trafficking and offering rehab for its 
survivors. Through a series of block grants, the bill would 
provide shelter and care for victims, including specialized 
counseling, clothing, and other daily needs in order to keep 
victims from returning to the streets. It creates a 
comprehensive victim-centered approach to addressing the sex 
trafficking of minors.
    It also aims to ensure adequate resources for law 
enforcement and prosecutors to rescue victims and put pimps 
behind bars. Police across our country do not have the 
resources. Prosecutors do not have the resources.
    It also provides funding to implement improvements in the 
National Crime Information Center which tracks information 
about missing and exploited children with the goal of 
identifying those children who are at high risk for trafficking 
and provides a more protective response.
    Importantly, the legislation will strengthen deterrence and 
prevention programs aimed at potential buyers. It will focus 
exclusively on minors and victims, those under 18 years of age, 
increase the share of funding available for shelters. Lack of 
appropriate shelters often force law enforcement to send 
victims to juvenile detention facilities, where there is no 
access to appropriate services, or releasing them, knowing that 
they will end up back in the hands of their pimps.
    In July, the Human Trafficking Caucus, along with the 
Victims Rights Caucus, hosted a briefing with the National 
Center for Missing and Exploited Children, and I understand 
Ernie Allen is testifying today, and addressed the shift of 
sexual exploitation from the streets to craigslist and other 
online venues where children are marketed for sex.
    The Internet has changed the way human trafficking and sex 
slavery operates. But in a showing of leadership, craigslist 
announced that it is shutting down its adult services section 
from its Web site in the United States.
    I look toward to hearing from both Ernie Allen and 
representatives from craigslist as we work together to 
eradicate this violence and protect our most vulnerable 
children. In particular, I hope we will hear from craigslist 
today that they will be shutting down the erotic pages in the 
more than 250 cities that still feature this section. We can no 
longer ignore that children in our country are being so 
horrifically exploited for economic gain. We have a moral 
obligation to help the neglected victims of sex trafficking and 
to crack down on their abusers.
    I thank you very much for this opportunity and for your 
studied attention to this. And I know from past experience, 
when you get involved, things happen. So I thank you, Mr. 
Chairman and Ranking Member Gohmert.
    Mr. Scott. Thank you very much.
    [The prepared statement of Ms. Maloney follows:]
        Prepared Statement of the Honorable Carolyn B. Maloney, 
        a Representative in Congress from the State of New York

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Representative Jackie Speier.

 TESTIMONY OF THE HONORABLE JACKIE SPEIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Speier. Mr. Chairman, thank you for holding this 
hearing. Ranking Member Gohmert, thank you as well, and for 
Members for participating.
    This is a human tragedy, a national tragedy. Up to 300,000 
children in our country are enslaved sexually. The number ranks 
anywhere from 100,000 to 300,000. Over the past 5 months I have 
immersed myself in this issue. I have talked to local DAs. I 
have talked to the U.S. Attorney. I have talked to the one FBI 
agent, one FBI agent in the entire Bay area who has 
responsibility over this issue. I have talked to the CEO of 
craigslist. I have talked to the National Center for Missing 
and Exploited Children, and I have talked to many victims.
    One victim, when I asked, How many times were you forced to 
do this a day, said, A minimum of 10, a maximum of 15 times a 
day. She was 17 years of age. So to put it very simply, 
Houston, we have a problem.
    It is not just in Houston. It is in Atlanta. It is in San 
Francisco, it is in Oakland, it is in New York. It is across 
this country, and we are not addressing the issue. We have 
quite literally taken our eyes off the ball.
    There are reasons for this perfect storm. First, the 
Internet. Before the Internet, those who wanted to purchase sex 
with underage children had to venture outside of their homes, 
subjecting themselves to potential arrest and public stigma. 
Today, perpetrators hide behind their personal computers and 
have a child at their doorstep with a click of a button. 
Between 2004 and 2008, child sex trafficking complaints 
originating from the Internet actually grew by 1,000 percent. 
And that is just the number of complaints, not the total 
volume. In fact, estimates are that on craigslist alone, there 
are more than 3.2 million posts on the adult services section a 
year. Now, this section has been taken down very recently, but 
just to give you an appreciation of how widespread this is.
    Further, Web sites are literally immune from being held 
liable for these crimes. In an effort to spark innovation, 
Congress passed the Communications Decency Act in 1996. Today, 
Web sites escape liability when an ad on their site results in 
child prostitution, rape, or even death.
    I am pleased to see that a representative of craigslist is 
here today. It is in my district. The founder is a constituent, 
so I recognize full well what I am taking on here. Thinly 
disguised ads for sex on craigslist receive three times as many 
responses as ads placed on any other sites. So when craigslist 
says, well, Look to these other sites, remember that they have 
been the 800-pound gorilla in this industry of sex trafficking 
of children. Recent reports have speculated that the ads that 
previously appeared on the adult services section will migrate 
to other portions of the site. Let the company not forget that 
they control the activities of their site. If they are truly 
committed to this issue, they will exercise all due diligence 
that this issue commands.
    That said, craigslist is certainly not the lone wolf. The 
activity taking place on myredbook.com, eros.com, and backpage 
is equally as horrific. These sites are facilitating crimes, 
and we must consider an effective response within the confines 
of the First Amendment.
    Second, in an era of competing priorities, child sex 
trafficking has, in effect, been decriminalized. You know, we 
pass tough laws, and then they sit on the shelves. Even though 
the Trafficking Victims Protection Act imposes a lifetime 
sentence on those convicted of trafficking, it is rarely used 
in prosecutions. We should all ask the question, why is this?
    During a 7-year period, 60 percent of child sexual 
exploitation cases presented to the U.S. Attorneys Office, 60 
percent, have been declined prosecution. Meanwhile, in 
contrast, just 15 percent of drug trafficking and 26 percent of 
weapon charges were declined. Why the disparity? Our priorities 
are clearly out of balance and perpetrators are taking full 
advantage. In fact, a pimp selling just four children can earn 
over $600,000 a year. Today, we live in a country where a 
person is more likely to go to jail to serve time for selling 
marijuana than for selling a child in sex.
    In the San Francisco Bay area, where my district is located 
as I mentioned earlier, only one FBI agent is assigned to work 
with local law enforcement and the U.S. Attorneys Office in the 
name of curtailing sex trafficking. Further, the inability to 
bring trafficking to justice is directly tied to inadequate 
victims' services. Girls who are rescued from prostitution 
typically come from abusive family situations. In fact, between 
60 and 90 percent have experienced physical and/or sexual 
abuse. Victims will rarely report the identity of his or her 
trafficker because they fear retaliation or they simply are 
dependent on their pimp for simple survival. These children 
have been traumatized. They have been brainwashed. They have 
been abandoned, and they need specialized services and 
resources for successful recovery.
    It is a travesty that only five residential facilities 
specific to this population exist across this country. 
Congresswoman Maloney's bill is important, but her bill should 
be increased tenfold and the money we commit to this should be 
increased tenfold.
    Again, I thank the Committee for taking up this very 
serious issue.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Speier follows:]
          Prepared Statement of the Honorable Jackie Speier, 
       a Representative in Congress from the State of California

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Judge Poe.

    TESTIMONY OF THE HONORABLE TED POE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Poe. Chairman Scott and Ranking Member Gohmert, thank 
you for holding this hearing. For several years now we have 
heard about the horror of international sex trafficking, but we 
are only just beginning to hear about the sex trafficking that 
preys upon our own children right here in the United States.
    As co-chair of the Victims Rights Caucus, along with my 
friend Jim Costa from California, we are concerned about the 
treatment of domestic crime sex trafficking victims The FBI's 
Innocence Lost Task Force calls domestic minor sex trafficking 
``the most overlooked and under-investigated form of child 
sexual abuse in America.''
    Why is this the case? According to the FBI it is because 
too many people believe that child prostitution is a victimless 
crime and that the children involved are criminals themselves. 
This kind of thinking is absurd. These children are victims of 
crime. The men that buy the young girls for sex are guilty of 
exploitation and abuse, and they are criminals. And the 
traffickers are the filth of humanity and they are criminals.
    And as one Texas Ranger friend of mine called these 
individuals, he said, When you see one, Judge, get a rope. It 
is a serious epidemic.
    Houston, Texas, unfortunately, is one of the main hubs for 
human trafficking here in the United States. We have been 
dealing with this problem for a long time. However, in recent 
years, the city has made tremendous strides toward addressing 
this issue. In Houston we have one of the 42 human trafficking 
rescue alliance groups in the country. And together with the 
FBI's Innocence Lost Initiative, they have rescued 140 domestic 
victims. Numerous traffickers have been prosecuted, receiving 
life sentences.
    Earlier this month I met with the Human Traffic and Rescue 
Alliance. Included in this group is a notable Houston 
constable, Ron Hickman, a law enforcement leader in confronting 
the epidemic of domestic trafficking in Texas. He and his 
officers told me that one of the biggest issues they face in 
combating trafficking is how to care for the victims. More 
specifically, they told me there is better care available to 
international trafficking victims that they rescue here in 
Houston than there is for our own citizens that are trafficked.
    Consider what is available to international trafficking 
victims. And I am not saying that we shouldn't help these 
victims, but here is what is available for them in Houston. 
International victims are eligible to apply for a U-visa or a 
T-visa, which allows them to remain lawfully in the United 
States. Immigrant service groups help them apply for free 
legal, medical, mental, housing and educational services. 
International trafficking victims can receive care in a 
residential facility or in long-term foster homes.
    Basically, we provide care to international trafficking 
victims. Here are the resources that are available to a victim 
of domestic trafficking in Houston. At the moment, law 
enforcement agents come across these victims of domestic 
trafficking, they are required to take them into custody. Once 
in custody, domestic minor victims can only gain access to 
these services when they are labeled as delinquents and charged 
with a class B misdemeanor of prostitution. That is right. To 
gain access to short-term services they have to be arrested and 
obtain a criminal record before they can be served by our 
communities.
    Furthermore, the short-term services do not even begin to 
address the severe physical or psychological trauma that these 
girls have encountered. Without access to specialized care, it 
has been shown that trafficking victims many times return to 
their traffickers and continue the cycle of abuse because they 
have no other place to go.
    We need in Houston and throughout the Nation long-term 
residential treatment facilities to care for victims of 
domestic minor trafficking. Any legislation that addresses this 
issue must include this victims center component. We have made 
improvements in caring for the victims that are trafficking 
across our border, as we should. We need to ensure that we are 
doing the same for our own children and those that exploit 
these children; hold them accountable, both the customer and, 
of course, the trafficker. And thank you very much.
    [The prepared statement of Mr. Poe follows:]
             Prepared Statement of the Honorable Ted Poe, 
          a Representative in Congress from the State of Texas

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Mr. Smith.

       TESTIMONY OF THE HONORABLE CHRISTOPHER H. SMITH, 
   A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman, 
and thank you to Mr. Gohmert, the Ranking Member, for convening 
this very important hearing on domestic human trafficking.
    Mr. Chairman, I want to thank for your leadership. Most 
recently we were able to pass in the House the international 
Megan's law, which is a good, strong corollary on prevention, 
to prevent those who abuse children and others through sex 
crimes before they travel abroad. The countries of destination 
would be advised in a timely fashion.
    As you know as well as I, because you helped us get that 
through the Judiciary Committee, the legislation also would 
make it more difficult for those who commit sex crimes and 
exploit children abroad to get into the United States. And if 
we had that information and it was actionable, which it would 
be if we could get Megan's laws passed all over the world, we 
could protect our children from these predators who make their 
way to the United States.
    As you know, Mr. Chairman, in the Trafficking Victims 
Protection Act, severe forms of human trafficking was defined 
as ``sex trafficking in which a commercial sex act is induced 
by force, fraud or coercion, or in which a person induced to 
perform such an act has not attained 18 years of age.'' Any 
person under the age of 18 and involved in commercial sex acts 
of any kind is a prima facie trafficking victim, and those who 
exploit and abuse these individuals could be subjected to very 
long prison sentences, including up to life imprisonment 
itself.
    At the time of our first trafficking law, we had little 
idea how many domestic victims this trafficking problem, this 
new modern-day slavery actually included. The excellent work of 
Linda Smith at Shared Hope International, who we will hear from 
in a moment, and researchers at the University of Pennsylvania 
and the National center for Missing and Exploited Children, has 
numbered domestic trafficking victims at at least 100,000. And 
the average age, as Linda will say in a moment, I am sure, when 
they first got exploited in this fashion was 13. Thirteen years 
old. These are our daughters. These are our children.
    Driven by demand and fueled by the ease and secrecy of the 
Internet, we are facing a huge and escalating crisis of child 
sex trafficking in the United States. The FBI, to its credit, 
has coordinated the Innocence Lost Initiative with local law 
enforcement, State prosecutors, and social service providers 
since 2003 to fight domestic minor sex trafficking. Using this 
framework, the FBI has conducted at least four Operation Cross 
Country raids to catch pimps and rescue child victims working 
the streets, casinos, truck stops, motels and the Internet. In 
2000 alone, Operation Cross Country rescued over 100 child 
victims ranging in age from 5 to 17 years old, and caught 124 
pimps. Over 1,600 law enforcement officers from 120 Federal, 
State, and local agencies participated. Between June of 2003 
and October of 2009, the Innocence Lost program rescued nearly 
900 children.
    I heartily applaud the hard work and remarkable 
coordination of State and Federal resources to stop domestic 
minor sex trafficking. But there is a huge gap in the numbers 
we rescue versus the estimated 100,000-plus victims that are 
out there. And that is why it is so important in joining my 
good friend and colleague, Carolyn Maloney, in introducing H.R. 
5575, to respectfully ask that the Committee look to markup at 
the soonest possible moment this very important legislation 
that will at long last provide the necessary refuge, the 
centers, the beds. As Carolyn Maloney pointed out a moment ago, 
the estimate is about 50 beds that are available for domestic 
minors and sex victims in the United States. That is appalling. 
That is really unconscionable.
    This legislation would change that by providing minimally, 
six grants of $2 to $2.5 million apiece so that hopefully we 
will provide a place of hope and rescue for these individuals.
    I like what Jackie Speier said a moment ago about we need 
to do tenfold. And of course we welcome amendments, because 
there really is a great need that has gone unmet in the area of 
places, beds, and centers.
    Let me also say to my colleagues that the Internet has 
enabled the misuse of trafficking, domestic trafficking in the 
United States. The Internet has opened up a whole new front in 
the war on trafficking, allowing demand to run free with very 
few obstacles. Therefore we must develop more effective 
safeguards and enforce existing laws to ensure that neither 
obscenity nor child pornography, neither of which is protected 
speech, to continue in the way that it is causing so many 
victims and to create a demand.
    Technology can help us if used properly. Such mechanisms 
include commonsense measures, including digital tagging, 
community flagging, and a whole host of other very important 
tools that can be used.
    I know my time is out and I will just finish on this, Mr. 
Chairman. We also need to weigh in on the ways that people, 
young children, are moved around. Last summer, this past 
summer, I convened a group of flight attendants led by American 
Airlines, which has a great program that really needs to be 
replicated worldwide, so that the flight attendants and crews 
will recognize a person who is in transit, being trafficked 
across borders or across States, and then take action; not in a 
vigilante type of way, but alert the pilot so that when this 
individual gets off, the right law enforcement assets--maybe 
ICE, if it is an international flight--can be waiting there at 
the gate to rescue or at least separate and investigate.
    There are instances after instances told at our briefing 
where people--it just didn't look right. And the flight 
attendants, you know, watched what was going on, got into a 
conversation--perhaps when the young ladies were going to the 
restroom--and told the pilot, who told law enforcement, and 
those ladies, those young girls in some instances, were 
rescued.
    We need to close up every means of moving victims across 
State lines and international lines as well. American Airlines 
has a great program going here. And so I urge that the 
Committee take a look at that as well.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Smith follows:]
       Prepared Statement of the Honorable Christpher H. Smith, 
       a Representative in Congress from the State of New Jersey

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    The Chairman. Ms. Smith.

            TESTIMONY OF THE HONORABLE LINDA SMITH, 
                  A FORMER MEMBER OF CONGRESS

    Ms. Linda Smith. Thank you, Honorable Chairman and Ranking 
Member, and all of you in these tough times that really are 
sitting through your Committee. I know you are on a vote, so 
thank you for prioritizing this.
    It is an honor to testify today on domestic minor sex 
trafficking. This is a name that we have given to sexual 
exploitation of U.S. citizen children through prostitution, 
pornography, and sexual entertainment. The name reflects the 
fact that this is human trafficking as defined in the Federal 
Trafficking Victims Protection Act of 2000.
    Victims of domestic minor sex trafficking should receive 
the full benefit of victim protection services and the rights 
outlined in the TVPA. And I guess they really, most of the 
time, don't.
    Furthermore, this is the point I want to make this morning. 
Those who buy their innocence must receive the full penalty 
called for in the law. I would like to summarize my comments 
and submit them and the two reports, the Domestic Minor Sex 
Trafficking: Prostituting American Children,'' and ``Demand'' 
for the record.
    Mr. Scott. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________

    Ms. Linda Smith. Thank you. A little brief background about 
Shared Hope. We started rescuing and restoring girls who were 
trafficked into sex trafficking around the world in 1998. 
Without going into that, we started studying the markets around 
the world, and we studied four specifically to compare the 
trafficking markets and how demand was facilitated. These four 
countries included the U.S., and that led to us doing more 
research for the Department of Justice. And eventually we came 
up with a report, the ``National Report on Domestic Minor Sex 
Trafficking: America's Prostituted Children.''
    The report reveals the following: American girls of all 
descriptions are being pimped, and were found in gentlemen's 
clubs, through escort agencies, and on the Internet Web sites 
in every major city that we researched.
    America's youth are at risk for extreme violence through 
prostitution. There are at least 100,000 children who are 
exploited in prostitution every year in the United States. And 
the average age is a minor middle-school girl that is 13 years 
old.
    Now, this was the alarming thing, and I wanted to stop and 
not do anything after I started figuring this out. In all 
locations, demand for younger victims was the factor driving 
recruitment and trafficking of our middle-school girls across 
America. Now, I knew it was going to be hard for you to believe 
what I am telling you today because it is not a place that 
anybody exaggerates, and I was here so I can say that. And 
sometimes you just hear things and it is just hard to believe.
    When I got the investigative video back and I started going 
through the stats, I thought, I don't believe this either. I am 
retiring to Phoenix or somewhere warm. But first of all. I 
wrote a book called ``Renting Lacey'' to kind of let people 
know what it was like to be a 13-year-old girl on the inside of 
trafficking. And from girls we have rescued and the girls we 
have worked with, the FBI and some others, they are real 
characters woven into a novel.
    But today you can't read that book. So I thought I would 
bring one of my girls with me in video. This is a new girl. She 
is in protection right now, and I would like to introduce you 
to a girl we are going to call Lacey this morning. She was 
trafficked on her 13th birthday, a little Sunday school girl, 
hadn't even had a boyfriend. And by her 15th birthday we got 
her back, out of a hospital, and now she is in protection. But 
I want her to talk to you about what it is like to be a 
trafficking victim in the United States.
    Mr. Chair, as we bring this up, I will go ahead. And I 
would like to commend craigslist for being here today and for 
shutting down the site that so many of my cases were marketed 
on. I have not had a girl that was not marketed online, and 
most of them were marketed through craigslist that I have 
worked on in the United States. I hope we will hear a promise 
to Lacey, the little girl--I hope you will get to hear--and the 
12-year-old girl in the front row, I just noticed that one of 
our little girls associated with the trafficking movement is 
here--that this cannot and will not happen on the Web site 
again. And we challenge other sites around the Nation, those 
that are just as bad at marketing children today, to follow the 
good lead of craigslist.
    I want to comment briefly on the two bills before us. Both 
of them make a point that I think is real important to make 
this morning. They lead with statements. They include an 
emphasis on what drives trafficking, and that is men buying 
commercial sex at a younger and younger age.
    I want to commend all the panelists for putting this as a 
top issue, for taking it onto their agenda not because it is 
just a popular issue, but because you have a passion in your 
heart.
    Now, in closing, I would just like to simply say thank you 
to all of those girls, including Lacey, who have had a chance 
to be saved, because now it is a public issue. We worked with 
law enforcement, we worked with nongovernment groups. We found 
a placement for this girl, and she is now safe because people 
now realize that she is a victim and she is not a criminal. 
Let's see if we can get Lacey in.
    I am going to summarize Lacey for you and give you a little 
bit of an idea of who she is. I was called on a case, and they 
had a girl in the hospital. A probation officers had connected 
with her earlier, and about a few months before that she had 
been picked up on prostitution, which makes me so sad because 
she was abducted at 13. But the good part about it is she had a 
probation officer who understood she was a victim. We were 
called to come in to find a way to protect her, to pay some 
expenses to help find placement for her; actually moved her to 
another State, found a placement. And then we moved her again 
and found another placement.
    But this little girl was--I call her a little church girl. 
Her whole week the week before she was abducted was going to 
church, going to Sunday school, going to youth group. She 
happened to have somebody stalk her for several months and 
identify that she was caring for her younger brothers and 
sisters. So she had younger brothers and sisters and they could 
threaten her with those younger brothers and sisters. They knew 
where she lived. They eventually got her, but she would stay in 
actual slavery, going to school part of the time and recruiting 
out of the school because they could get her little brothers 
and sister.
    This is a 13-year-old girl that has now just turned 15 last 
month. I had a birthday with her, and she is the same age as my 
youngest granddaughter. This is not acceptable. It has to be 
moved up.
    And as much as I love the foreign trafficking victims too, 
and we do rescue and restore all girls and all women that come 
to us, we have to move the domestic traffic victim who has to 
be over 90 percent of the victims up to a point in priority, in 
the TVPA funding or anyplace there is a chance, because it is 
just not acceptable to leave these children as criminals with 
no protection, and to let the men that are buying them walk 
free. Thank you.
    Mr. Scott. We are going to try the video one more time?
    Ms. Linda Smith. It actually worked this morning. This is 
so common. You know, this is just fine. I want to thank you 
all. If it does not come up, we will make it available to each 
of the Committee Members. Thank you. Your patience has been 
great. We can get this to you.
    Mr. Scott. We are expecting votes any minute now. Perhaps 
they can continue to work on it in just a minute.
    Ms. Linda Smith. The voice is changed and it sounds very 
odd, but she is in protection and her face is covered.
    Mr. Gohmert. Can we stop the sound? Great. Can I also say, 
obviously you have made a real difference. Thank you for the 
lives you have helped.
    Ms. Linda Smith. Thank you.
    [The prepared statement of Ms. Smith follows:]
           Prepared Statement of the Honorable Linda Smith, 
                      a former Member of Congress

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. We will work on the video and see if we can get 
the video. We are going to be in recess for approximately half 
an hour. We have five votes and that will take at least a half 
an hour. And so we will reconvene at 2:30. The Subcommittee 
stands in recess.
    [Recess.]
    Mr. Scott. While we are waiting for Judge Gohmert, could we 
run the tape that we planned to run before? I think it is about 
2 minutes long.
    [video played.]
    Mr. Scott. Judge Gohmert will be with us shortly. Let me 
begin by introducing our second panel. Our first panel will be 
Frances Hakes, who is the National Coordinator for Child 
Exploitation, Prevention, and Interdiction in the Office of the 
Deputy Attorney General of the Department of Justice. This 
position was created by Congress in the Protect Our Children 
Act of 2008. In this capacity she is charged with implementing 
a National Strategy to combat child exploitation. She serves as 
the Justice Department's liaison to Federal, State, and local 
agencies and organizations on child exploitation issues and 
will be submitting reports on the National Strategy to 
Congress. She also serves as an Assistant United States 
Attorney for the Northern District of Georgia.
    Our second witness, Ernie Allen, is co-founder of the 
National Center for Missing and Exploited Children. He has 
served as President and CEO of the private nonprofit 
organization since 1989. Under his leadership, more than 
155,000 children have been recovered and the organization has 
increased its recovery rate from 62 percent in 1990 to 96 
percent today. He has brought technology and innovation to the 
center, including age progression and forensic imaging of long-
missing children, a 24-hour missing children hotline, and 
training for more than 276,000 law enforcement officers.
    Our third witness is Tina Frundt, who has been actively 
raising awareness of the commercial sexual exploitation of 
children since 2000. A high-profile national advocate on the 
issue of domestic sex trafficking as well as a survivor herself 
of minor sex trafficking, Ms. Frundt started her own nonprofit, 
Courtney's House, which provides services for domestic sex-
trafficked youth. Courtney's House is the first group home for 
sex-trafficked children, aged 12 to 18, in the Washington, D.C. 
metropolitan area.
    Our next witness we wanted to have Mr. Lungren introduce, 
but he has been detained. Our next witness will be Nicholas 
Sensley, who was appointed Chief of Police of Truckee, 
California in November 2008. He has been working to combat 
human trafficking since 2001 when he developed an innovative, 
collaborative problem-solving methodology known as the CARE 
model, Custodial Analysis Response and Evaluation. He is one of 
the architects of the first anti-human trafficking task forces 
in the United States that was initiated in New York City in 
2001. Similar task force groups are now sponsored by the U.S. 
Department of Justice in 42 cities throughout the United 
States. At the request of the Department of Justice in 2009, he 
authored national guidelines for anti-human trafficking task 
force operations.
    Suzanna Tiapula is the national director--is the director 
of the National District Attorneys Association's National 
Center for Prosecution of Child Abuse, where she coordinates 
and manages activities and operations of the Center. She also 
trains child abuse professionals across the country on the 
investigation and prosecution of child maltreatment and 
exploitation. In 2004 and 2005, she coordinated the development 
of two advanced trial advocacy courses for prosecution of 
online crimes against children as part of the National Center's 
child sexual exploitation program.
    Deborah Richardson, chief program officer for the Women's 
Funding Network, is responsible for the implementation of the 
10-year strategic plan, which includes programming, research, 
evaluation, communications, and project initiatives of this 
global network of 165 women's funds in six continents. As a 
nationally recognized advocate in ending child sexual 
exploitation, she has designed model programs such as CEASE, 
Center to End Adolescent Sexual Exploitation, Angela's House, 
which is the only safe house in the southeast for sexually 
exploited girls. And she has also been involved in the creation 
of multidisciplinary systems of care. Her organization has some 
shocking recordings which she will describe.
    Our seventh witness is William ``Clint'' Powell, who is the 
Director, Customer Service and Law Enforcement Relations for 
craigslist. In that capacity he has served as craigslist's 
primary contact person with the law enforcement community for 
the past 6 years. He works directly with police officers, 
Federal agents, prosecutors, and others in the law enforcement 
community whose investigations involve craigslist content, and 
personally testifies in judicial proceedings throughout the 
United States where matters require testimony regarding 
craigslist records or procedures.
    Elizabeth McDougall is a partner at Perkins Coie law firm's 
litigation practices. She focuses on Internet-related disputes, 
online safety and security issues, and intellectual property 
litigation. She maintains an active pro bono practice currently 
focused on combating human trafficking. Areas of her expertise 
include combating the use of services for unlawful activities, 
combating exploitation and abuse of services for unauthorized 
purposes, combating misuse of online and off-line content and 
works, and combating unlawful intrusions into client services 
and systems. She also offers and provides pro bono 
representations to nonprofit organizations on these issues, 
with a particular emphasis on antihuman trafficking strategies, 
efforts, and measures.
    Now, all of the witnesses' written statements will be 
entered into the record in its entirety. We ask each witness to 
summarize his or her testimony in 5 minutes or less, and to 
help stay within that time limit there is a lighting device on 
the table which will start green, go to yellow when there is 1 
minute remaining, and will turn red when the 5 minutes have 
expired.
    Mr. Scott. So we will begin with Ms. Hakes.

  TESTIMONY OF FRANCEY HAKES, NATIONAL COORDINATOR FOR CHILD 
    EXPLOITATION PREVENTION AND INTERDICTION, UNITED STATES 
             DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Hakes. Good afternoon, Members of the Subcommittee.
    Mr. Scott. Excuse me. I just noticed Mr. Lungren was with 
us. Did you want to say a kind word about your Chief? I 
announced that you were coming.
    Mr. Lungren. No, no, if I could just say this about Chief 
Sensley. We have had seminars in our district on the issue of 
human trafficking. Unfortunately, my area, by the FBI 
statistics, is one of the worst in the entire United States. A 
lot of people have a hard time believing that in Sacramento, 
but we happen to be at the intersection of north-south 
interstates and east-west interstates. And Chief Sensley, who 
is from the small community of Truckee--if any of you want to 
know where that is, if you have ever been skiing in Lake Tahoe, 
you go right through his district. I asked him, how does a guy 
get from New York to Truckee, and he said, ``Well, it helps if 
you like to ski.''
    He is an internationalized expert on this issue, he has 
lectured on the setup programs not only in the United States 
but in foreign countries. And his sensitivity to this issue is 
absolutely palpable. And I am so happy that he was able to come 
here, and I thank you, Mr. Chairman, for allowing me to put in 
a couple of words there.
    Mr. Scott. Thank you. I am sorry, Ms. Hakes.
    Ms. Hakes. Good afternoon Chairman Scott--Ranking Member 
Gohmert I don't believe is in the room yet--and Members of the 
Subcommittee.
    As you may know, I am the National Coordinator for Child 
Exploitation Prevention and Interdiction. And I am attached 
currently to the Deputy Attorney General's Office at the 
Department of Justice. I am also a Federal prosecutor and I 
have been an assistant U.S. Attorney since 2002. Prior to 2002, 
I was an assistant district attorney in the State of Georgia 
for 6 years.
    My very first trial as an assistant district attorney was a 
child exploitation case. I have specialized in child 
exploitation my entire career.
    It is an honor for me to appear before the Subcommittee to 
discuss Department of Justice efforts around the country to 
prosecute individuals involved in the prostitution of children.
    While, unfortunately, children around the world are 
victimized by various forms of sexual exploitation, my focus 
today is the commercial sex exploitation of American children 
by American citizens that occurs solely within the borders of 
our country. I will be describing for you the efforts being 
undertaken by the Department of Justice to combat child 
exploitation in all of its forms.
    As I am sure you know, the Department submitted its first 
ever National Strategy for Child Exploitation Prevention and 
Interdiction to Congress on August the 2nd. This National 
Strategy contains three parts: A comprehensive assessment of 
the threat child exploitation poses to our children; a review 
of the current efforts to prevent and interdict child 
exploitation across the government; and finally, our 
comprehensive approach to deterring, preventing, and 
interdicting these terrible crimes.
    The commercial sexual exploitation of American children is 
a form of human trafficking. It is often prosecuted under the 
sex trafficking provisions of 18 United States Code section 
1591. Those who sexually exploit children, whether foreign or 
domestic, for commercial gain exploit the vulnerabilities of 
their victims. American children are recruited by pimps and 
madams from all socioeconomic classes and from all races. They 
become victims because of abandonment, abuse, or unhappiness. 
These children targeted by pimps and madams are typically 
runaways, throwaways, or victims of physical or sexual abuse.
    These vulnerable children are promised stability, love, 
attention, and a home, but instead find themselves forced into 
prostitution. American pimps and madams can recruit children 
for nearly nothing and can easily replace one child with 
another. They seem to have little fear of law enforcement, 
confident in their ability to keep their victims from 
cooperating against them. And, sadly, these pimps and madams 
are confident that they have customers who are willing to pay 
to sexually assault these children.
    The Department of Justice is heavily involved in combating 
this grave and growing problem. While it is difficult to 
imagine, children as young as 11 are targeted for commercial 
sexual exploitation.
    In June of 2003, as this Committee has already heard, in 
order to address this growing problem, the Department, with the 
FBI and the Department's Child Exploitation and Obscenity 
Section, in conjunction with the National Center for Missing 
and Exploited Children, launched the Innocence Lost National 
Initiative. Each of the Innocence Lost National Initiative's 38 
task forces and workings groups throughout the United States 
work in tandem with Federal agents, State and local law 
enforcement, and with U.S. Attorneys offices. They also bring 
together Federal, State, and local law enforcement prosecutors 
and social service providers to engage in training at the 
National Center for Missing and Exploited Children.
    To date, this Innocence Lost Initiative has resulted in 
nearly 600 convictions at the State and Federal level and the 
location and recovery of more than 1,100 children. 
Investigative efforts have increasingly resulted in substantial 
sentences for those convicted, including four life sentences 
and many others ranging between 25 and 45 years.
    Recognizing that a gap in services often leads to 
difficulty in gaining a victim's cooperation in these cases, 
the Department's Office for Victims of Crime is funding three 
demonstration projects that are focused on providing services 
to domestic children exploited through prostitution. These 
projects will hopefully identify promising practices in the 
delivery of a wide away of services to vulnerable victims, and 
we look forward to a report from these projects.
    As I noted at the the beginning of my remarks, the 
Department has recently submitted its National Strategy for 
Child Exploitation Prevention and Interdiction to Congress, and 
I brought a copy with me today for those of who you have not 
seen it. We have also already begun implementing the goals and 
the priorities contained therein.
    When we submit our next report, I expect we will be able to 
tell you of the strong progress we have made in the fight 
against all forms of child exploitation.
    As we note in the National Strategy, we are committed to a 
multifaceted attack on child exploitation on three fronts: 
Prevention, deterrence, and interdiction. Each of these three 
is critical to our success in this fight. We are engaged with 
all of our law enforcement partners on interdiction efforts, 
with our community and agency partners at the Department of 
Education and others in our prevention efforts, and with the 
U.S. Marshals and others on our deterrence efforts.
    The message that we are sending with our National Strategy 
is clear. The Department of Justice is fully engaged in 
preventing, deterring, and interdicting these heinous crimes. 
Our goal is to prevent exploitation where we can and to 
aggressively pursue those who prey on our children with strong 
enforcement, vigorous prosecution, and serious jail time for 
those who believe they can harm our children with impunity. 
Thank you.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Hakes follows:]
                  Prepared Statement of Francey Hakes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Chief Sensley.

  TESTIMONY OF NICHOLAS A. SENSLEY, CHIEF OF POLICE, TRUCKEE 
                 POLICE DEPARTMENT, TRUCKEE, CA

    Chief Sensley. Thank you Mr. Chairman, Ranking Member 
Gohmert and other Members of the Committee. And especially to 
Mr. Lungren, thank you for the support that you continue to 
show for us in California.
    I am going to jump to the end as I speak to the issues that 
have been spoken to in many representations here today. Part of 
my concern is in the use of the term ``slavery.'' My concern 
rests there because from the street level we can attest that 
what is going on in this domestic minor sex trafficking is, in 
fact, an act of slavery. Where the problem exists is that there 
is not the emphasis in responding to this problem of slavery 
that we saw some 200 years ago. And if perhaps truly a shift 
were to occur, we would see the needed response for our 
children, particularly on the street.
    I go back to Mr. Gohmert's earlier statement when he spoke, 
in saying that this is a problem that is difficult to 
comprehend. It is in fact a problem that is difficult to 
comprehend even among the law enforcement circles, and that is 
a part of the problem in that it causes often an inappropriate 
response to a very significant problem and quite an atrocity 
that is being perpetrated against our children.
    When in the initial years following--particularly the first 
year following the passage of TVPA, we were conservatively 
estimating that 90 percent of law enforcement was unaware of 
this problem as it manifests itself here in this country, let 
alone how it manifests itself in other parts of the world. The 
other-parts-of-the-world side of this issue is part of the 
problem in that it is largely perceived as something that goes 
on somewhere else and that it is not happening here at home to 
our own children. That in itself leads to another level of 
victimization for a tremendous problem that is going on in 
every major city, even in small cities, around the world. And 
we need to recognize that for what it is.
    The City of Dallas, in these statistics that they have 
brought from their work, one of the statistics that they point 
out is that there is an 85 percent chance that by the second 
time a teenage girl runs away, she will be sexually exploited. 
By the third time she runs away, she will be commercially 
sexually exploited. She will be a victim of human trafficking.
    There is great cooperation that is going on between 
Federal, State, and local enforcement officers and among the 
NGO partners that are a part of the response to this problem. 
But from what I am seeing it is happening in pockets around our 
country and with varying levels of success. That is largely 
dependent upon issues related to education and training; 
resources, particularly resources in terms of facilities.
    It is a difficult matter for a young patrol officer when 
with some diligence has managed to identify what truly may be a 
victim of human trafficking, and the best that he has is to 
maintain that person in the back of a patrol car until they can 
beg or make some sort of appeal to place this child who, if not 
properly placed, will simply end up back on the street and in 
the system and in the hands of the traffickers. And when that 
child sees that is the system's response to the tragedy that 
she has lived, then there is no reason to have confidence in a 
justice system to find resolution to this problem.
    Another matter that I would really like to speak to very 
quickly with regard to the bill itself. I appreciate the 
statement and the concern about a ``john program'' that pays 
for the education of the perpetrators on the demand side of 
this issue. Quite frankly, if they had the money to pay for the 
services to exploit these children, then they have have the 
money it takes to pay for being caught in the perpetration of 
this crime.
    I highly encourage us in this time of considering this 
issue that this only be the beginning of a major movement 
toward combating this problem. If we truly regard it as an 
issue of slavery, then we should give it the response that 
slavery deserves on a wide scale and a monumental level. Thank 
you very much.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Sensley follows:]
               Prepared Statement of Nicholas A. Sensley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Mr. Allen.

 TESTIMONY OF ERNIE ALLEN, PRESIDENT AND CEO, NATIONAL CENTER 
       FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VA

    Mr. Allen. Thank you, Mr. Chairman, Judge Gohmert, Members 
of the Committee. It has been said several times, but most 
Americans believe that child trafficking only happens somewhere 
else. Today I can report to you that it is happening to at 
least 100,000 U.S. children each year. You have heard the 
numbers from the Members already.
    The primary basis for our estimate is a study by the 
University of Pennsylvania, funded by the National Institute of 
Justice. The researchers estimated that 293,000 U.S. children 
are at risk each year and that 250,000 10- to 17-year-olds are 
involved in commercial sexual exploitation, with at least 60 
percent being runaway, throwaway, or homeless kids. Of that 
number, we believe that at least 100,000 are trafficking 
victims.
    One-third of street-level prostitutes are less than 18. One 
half of off-street prostitutes are less than 18. Since the 
launch of the Innocence Lost Initiative that Ms. Hakes 
mentioned, we at the Center have learned several important 
things. One is that much of this is organized crime. There is a 
network. These kids are moved from city to city.
    While most of it is not traditional Mafia-type organized 
crime, in April a Federal grand jury in New York indicted 
members of the Gambino crime family for selling kids for sex 
via the Internet. Organized crime is involved for two reasons: 
low risk, high profit.
    We have learned, as has been mentioned by Chief Sensley and 
others, that these kids are victims. This truly is 21st century 
slavery. They lack the ability to walk away. The pimps who use 
them are the criminals, as are the customers who purchase them. 
These kids need to be rescued, not arrested.
    And we have learned that the offenders don't just parade 
these kids on city streets anymore. We have learned, we have 
seen over the past 7 years that there has been gradual movement 
to the Internet. The customers shop online from the privacy of 
their own homes and hotel rooms, and that is why in 2008 the 
National Center joined with Connecticut Attorney General 
Richard Blumenthal and 40 other AGs in an agreement with 
craigslist, the largest online classified advertising site. We 
recognize that law enforcement is never going to be able to 
arrest and prosecute everybody. If we are going to end child 
sexual trafficking, which is the goal, we need a multipronged 
attack that includes engaging the companies at the epicenter of 
the problem.
    Why was the nonprofit National Center a party to such an 
agreement? Well, first, it is what we do. Secondly, Congress 
has given the Center 20 specific mandates, including operating 
the CyberTipline, the national reporting mechanism for child 
sexual exploitation, working to prevent child sexual 
exploitation, and specifically working with law enforcement, 
Internet service providers, electronic payment providers and 
others to reduce the distribution on the Internet of images of 
sexually exploited children. So it was absolutely necessary and 
appropriate for us to be a party to the agreement. And let me 
add that we have not received a dime from craigslist, nor will 
we.
    In the 2008 agreement, craigslist agreed to require credit 
card verification, working phone numbers, and aid law 
enforcement investigations. Yet after several months, it was 
clear that the agreement was not having the intended effect. So 
in 2009, craigslist agreed to take additional steps, including 
shutting down Erotic Services, replacing it with a new category 
in which all ads would be manually screened, with suspicious 
ads being reported to the National Center. Nude or graphic 
pornography photos were banned.
    Again, while there was some impact, we concluded that it 
was not eliminating the problem, so we pressed for additional 
steps. It now appears that craigslist has shut down Adult 
Services altogether. And if indeed this has occurred, we think 
it is a positive and constructive step.
    However, we must broaden the focus beyond craigslist and 
urge every online classified site to take action, including 
flagging and reporting suspicious ads to the National Center's 
CyberTipline.
    Let me illustrate briefly. In July, a Maryland mother found 
her daughter in a sex ad on multiple sites, including 
craigslist and Back Page. She contacted us. We worked with the 
Maryland State Police and the FBI. The juvenile was recovered. 
The pimp was arrested. The child in the ad looked young, yet no 
company reported it. There are many other examples.
    We received over the past 16 months 137 reports from 
craigslist. They removed 725,000 ads. Our message to these 
companies and the public is simple: If you see it, if you 
suspect it, if you know about it, report it. That is the way 
law enforcement learns about these cases.
    Now, we recognize that if we crack down in one area, some 
of this problem will migrate to other areas. But frankly that 
is progress. We follow the money. The goal is to destroy the 
business model of those who sell children for sex on the 
Internet.
    Let me mention briefly a few other priorities. First, many 
of these kids are missing children. Our analysts are doing 
image matching, searching databases trying to identify children 
who have been reported missing by their parents, and are 
finding a bunch of them. Yet some law enforcement agencies 
still do not enter them promptly into NCIC as is required by 
Federal law, and some not at all. There must be comprehensive 
law enforcement training in how to recognize high-risk victims 
and respond effectively.
    This is a complex problem that crosses political boundaries 
and jurisdictions. There needs to be strong cooperation between 
Federal and State governments. In July, the National Conference 
of State Legislatures adopted a strong policy on human 
trafficking calling for more services for victims, enhancement 
of NCIC, and greater Federal-State dialogue and collaboration. 
We think that is important.
    There needs to be far more attention to prevention. 
Increasingly, our society is sexualizing children at younger 
and younger ages, leading some kids to view sexual exploitation 
as normal. We must keep them from becoming compliant victims.
    As you have heard, we need to attack demand, and we need to 
create greater understanding as to why there is such a large 
market in this country for sex with kids.
    Finally, we have got to provide more services for the 
victims. Today there are some extraordinary programs doing 
heroic work, but there are not enough of them and the ones that 
exist receive insufficient funding.
    In conclusion, Mr. Chairman, I can report that we are 
making progress, but there is much more to do and we believe 
that Congresswoman Maloney and Congressman Smith's bill is a 
great step forward. Thank you.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Allen follows:]
                   Prepared Statement of Ernie Allen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Mr. Scott. Ms. Frundt.

     TESTIMONY OF TINA FRUNDT, EXECUTIVE DIRECTOR/FOUNDER, 
                COURTNEY'S HOUSE, WASHINGTON, DC

    Ms. Frundt. Thank you, Mr. Chairman and Members of the 
Committee. I am a survivor of child sex trafficking. I was 13 
when I fell in love for the first time. He turned out to be a 
pimp. I was gang-raped, psychologically manipulated, sold for 
sex, and beaten. I had a broken arm, a broken finger, and a 
broken spirit when the police found me at the age of 15 through 
a raid. Sadly, they arrested me and I spent 1 year in juvenile 
detention. Torture.
    This is the typical experience of a child sex trafficking 
victim. Arrest rescued me from my pimp, but it gave me the 
label of delinquent. Detention gave me a year away from the 
daily rapes and beatings that I was enduring but it did not 
provide me with the counseling or the treatment for the trauma. 
I spent 1 year locked up, and came out at the end with no 
referrals for services, nothing to help me go back and have a 
normal childhood.
    I took those experiences and made it my mission, as many, 
many survivors do, to be a part of the solution. A decade ago I 
committed to developing and providing the specialized services 
that I did not receive when I was a victim. And soon I will 
provide a specialized shelter, so desperately needed, to truly 
help hundreds and thousands of children used in prostitution in 
our country every year.
    First, I founded Courtney's House in the District of 
Columbia which provides outreach, case management, specialized 
services to treat the trauma victims of child sex trafficking. 
Next, I began developing Shae's Place, a shelter for girls, 
ages 12 to 18, in Northern Virginia. We are set to open this 
year. However, one of the gaps we have at this time is the 
absence of safe housing. Appropriate shelter, specifically for 
boys and girl victims of domestic sex trafficking.
    Shae's Place is designated to be a long-term home for six 
residents with a maximum stay of 3 years, with a 2-year 
aftercare program. It can take years for a victim to recover, 
and each victim requires tailored therapy. This can only be 
accomplished effectively in a place of safety and trama-
centered treatment.
    A shelter like Shae's Place is not inexpensive to operate. 
Our annual projected budget is $600,000. While this provides 
housing, home schooling, counseling, therapy, as well as 
activities, food, everything they need, it is supplemented by 
generous gifts right now: drastically reduced rent, in-kind 
gifts of furniture and necessities, as well as volunteer 
activities. Also, sizable grants from donors like Shared Hope 
International.
    Our cooperation with law enforcement has been critical on 
both the rescue front and the aftercare programs and shelter 
preparations. As the most frequent first responders in a case 
of domestic minor sex trafficking, it it is critical that they 
are connected to Courtney's House so that we can accompany them 
on raids to stabilize and advocate for any victims identified 
at the scene. We also follow through with case management after 
the rescue which gives the victims confidence to work with law 
enforcement in building cases. And after the case is over, they 
will still continue to work with us and receive the proper 
treatment that they deserve.
    There are group homes and shelters all over the country 
where children are placed, and some may even have specialized 
shelters for different types of various sexual abuse. However, 
the special trauma suffered by a victim of domestic minor sex 
trafficking requires a specialized environment. This population 
suffers from intense embarrassment and shame, having been 
conditioned by the traffickers to blame themselves.
    The Internet has played a big part in the sex trafficking 
of every client, both boys and girls. Not only craigslist, but 
every child we have, has been sold on craigslist, averaging 
ages of 11 to 17.
    But what we really need to take a look at is the other 
resources us as well. Every pimp has a MySpace page. Every pimp 
has a MySpace page. They also use backpage.com. And also every 
pedophile who buys sex from children have john boards where 
they go online and post information on where to buy children. 
And this is not only inside our United States, it is also 
worldwide. This has been going on for many, many, many years. 
We must do something about our children being sold on the 
Internet.
    Honorable Chairman, Members of the Committee, thank you for 
the opportunity to share my experiences. As a voice of a 
survivor, and now as leader in providing services and, soon, 
specialized shelter to victims of domestic minor sex 
trafficking, I must tell you that when we see for the average 
age for boys and girls is 11 to 12 years old. I implore you to 
pass the H.R. 5575, which will enable six locations around the 
country to set up comprehensive responses to the child sex 
trafficking occurring in their cities. One of these six grants 
may not be used in Washington, D.C., or Northern Virginia, but 
the benefit of six shelters somewhere in the Nation, likely 
doubling the number of beds currently allocated to domestic 
minor sex trafficking victims, cannot be underestimated. And we 
need this yesterday.
    Thank you very much.
    [The prepared statement of Ms. Frundt follows:]
                   Prepared Statement of Tina Frundt

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you. Ms. Tiapula.

  TESTIMONY OF SUZANNA TIAPULA, DIRECTOR, NATIONAL CENTER FOR 
    PROSECUTION OF CHILD ABUSE, NATIONAL DISTRICT ATTORNEYS 
                  ASSOCIATION, ALEXANDRIA, VA

    Ms. Tiapula. Chairman Scott, Ranking Member Gohmert and 
Members of the Subcommittee, thank you for inviting me to 
testify today on behalf of the National District Attorneys 
Association, the oldest and the largest organization 
representing over 39,000 district attorneys, States attorneys, 
attorneys general and county, city and tribal prosecutors with 
responsibility for prosecuting 95 percent of the criminal 
violations in every state and territory of the United States. 
Protecting our children from those who would commercially 
sexually exploit them remains one of the most important 
challenges facing America's criminal justice system today. 
Commercial sexual exploitation of children is particularly 
problematic, since many criminal justice systems have only 
recently begun to address the victimization of our adolescents 
and our children that occurs in the guise of sex trafficking 
and prostitution. Emerging research on the adolescent brain, 
trauma bonding, the intimate partner violence dynamic of pimp/
child relationships is reshaping our criminal justice responses 
to more appropriately address the needs of these children, 
while bringing justice to those who would commercially sexually 
exploit them.
    As the program director of the National Center for 
Prosecution of Child Abuse, a program of the National District 
Attorneys Association, I provide technical assistance, and 
training support to the 39,000 prosecutors charged with 
protecting the boys and girls in this country from commercial 
sexual exploitation and allied professionals. I am a former 
prosecutor. I have served as a State and local prosecutor in 
multiple jurisdictions handling a range of intimate partner 
violence and child abuse cases, many of which involved victims 
of human trafficking.
    It is through these experiences that I applaud and thank 
you for appreciating the need to improve systems responses to 
bring justice to these victims and to end human trafficking and 
slavery in this country. The leadership demonstrated by each of 
you who serve on this Subcommittee and hosting this briefing 
suggests that the coordination of Federal, tribal, State and 
local efforts in this area is now widely recognized as an 
increasing priority in America's criminal justice system. There 
are countless cases where juvenile justice responses, civil 
trial protection and criminal prosecution of child abuse do not 
reflect common schema or coordination. The statutory frameworks 
which criminalize adolescent victimization through prosecution 
stand in stark contrast to the human trafficking statutes which 
are specifically designed and outline protection for victims of 
trafficking. Many jurisdictions, too many jurisdictions, have 
conflicting statutory frameworks for addressing the 
victimization of our children.
    As long as we are arresting the child victims we are 
facilitating the sex industry in this country. Statutory 
frameworks which provide limited opportunities for the underage 
trafficking victim to cooperate with prosecution and make 
healthier choices fly in the face of our understanding of the 
adolescent brain, the intimate partner violence dynamic and the 
trauma bonding which occurs in these cases. The post-traumatic 
stress issues which are related to a history of repeated sexual 
assault and the inability of our child protection systems to 
respond appropriately to the needs of sexually exploited 
children and to the children in our foster care system.
    We have invited medical partners, including the American 
Academy of Pediatrics, to develop a public health model for 
addressing the medical needs of these children. A criminal 
justice framework is absolutely appropriate for responding to 
those who are commercially sexually exploiting our children. 
Other frameworks might provide insights for better meeting the 
needs of the child victims in these cases. The need for 
adequate victim services is critical to improving the criminal 
justice responses with victim center investigation and 
prosecution practices.
    Another concern that has been largely overlooked is that 
many of the underage female victims in these cases have 
children or are pregnant at the time of the investigation, 
often by their trafficker or pimp. Child protection needs to be 
involved to consider carefully the needs of the second 
generation victims in these cases. Also, we too often find the 
very inappropriately named john schools included in victims 
service allocations. I believe that was raised earlier. From a 
linguistic and a victim's perspective, John is a book in the 
Bible, the name of my brother, and many excellent individuals. 
The criminals who commercially sexual exploit our children 
should not have their criminal behavior minimized by this 
language.
    Chairman Scott, Ranking Member Gohmert, Members of the 
Subcommittee, I appreciate the opportunity to testify before 
you on this important topic and thank you for appreciating the 
need to improve systems responses for the domestic victims of 
sex trafficking in this country. I am more than happy to answer 
any questions you may have.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Tiapula follows:]
                 Prepared Statement of Suzanna Tiapula

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Ms. Richardson.

TESTIMONY OF DEBORAH RICHARDSON, CHIEF PROGRAM OFFICER, WOMEN'S 
               FUNDING NETWORK, SAN FRANCISCO, CA

    Ms. Richardson. Good afternoon, Chairman Scott, Ranking 
Member Gohmert and Members of the Subcommittee. I have worked 
for more than a decade to protect girls from domestic sex 
trafficking. I have seen girls as young as 10 years old 
handcuffed, hauled off to juvenile detention while their 
predators who pay for sex with them went free. And I would just 
like to stop and thank you, Tina, for speaking on behalf of so 
many young girls who cannot speak for themselves.
    An independent tracking study released today by the Women's 
Funding Network shows that over the past 6 months, the number 
of underage girls trafficked online has risen exponentially in 
three diverse States, Michigan, a 39.2 percent increase, New 
York, a 20.7 percent increase, and Minnesota, a staggering, 
64.7 increase. And what you see on the projected slide 
documents what you have already heard. The intimate is the 
predominant source for trafficking of domestic underage girls. 
The anonymous veil of the Internet makes this crime practically 
risk-free for traffickers and the men who buy sex with innocent 
girls, laws protecting these young girls have not kept up with 
technology.
    To demonstrate my point, I brought some audio tapes today 
which I am not able to hear, but I ask, Mr. Chairman, if I may 
respectfully submit them as part of my written testimony.
    Mr. Scott. Without objection, so ordered.
    Ms. Richardson. Thank you. What you would have heard on 
this tape are men calling online ordering sex from young girls. 
The young girl said, I am just turning 16. Is that okay? The 
man responded, that is okay. Actually, I wish you were 12. 
Another man, in talking about the location with this young girl 
where they would meet up, the girl said yes, I know where that 
is. It is next to my school. Those voices are shocking. But 
what they demonstrate is that every day, in every community, 
calls are being made by men who are our neighbors and 
colleagues.
    Mr. Allen said a few minutes ago, you must follow the 
money. And in a report released today by the AIM Group, it says 
where the money is that demonstrates in 12 online sites, they 
will account for $63 million in sex for sale ad revenue in 
2010. And until craigslist took down its site earlier this 
month, they were accounting for $30 million of these sales. The 
next competitor is Backpage, with $17.5 million. In the 2010 
independent study, men who buy sex with adolescent girls, more 
than half the men responding to this ad featuring young girls 
wanted to continue the transaction despite multiple warnings 
that the girl they were about to buy was underage.
    As a matter of fact, according to our study, ads on 
craigslist received three times as many responses compared to 
Backpage. When we released this study, craigslist's initial 
response was a cease and desist demand. The Women's Funding 
Network asked to sit down and talk to them about solutions, but 
they declined. Backpage response, nothing at all. While we 
acknowledge craigslist for its recent actions, we are 
interested in what you will present today in terms of 
solutions. We hope the Committee will ask craigslist how it 
will make sure that no girl is sold on its site. 
Notwithstanding the significant role of the Internet, we 
believe that there are both public policy and grassroots 
efforts that can be deployed to address this issue. The Women's 
Funding Network is one of the largest philanthropic networks in 
the world representing womens' funds on six continents, and we 
have accelerated our efforts in the United States to end 
domestic sex trafficking.
    We are making an initial investment of $1 million to 
support the work of our member funds, and this investment will 
go toward replicating the successful models of future not a 
past, that campaign that has amazing results in Georgia. The 
Michigan Women's Foundation, the Women's Foundation of 
Minnesota, the New York Women's Foundation, and the Dallas 
Women's Foundation, are the first four of 10 States that are 
mounting statewide efforts. The Georgia model, as Ms. Hakes is 
very much aware of, combines independent resources, law 
enforcement, the statewide system for care and grassroots and 
leadership. And we are seeing that their numbers on the number 
of girls being sexually exploited in the past 6 months is 
trending downward.
    The Women's Funding Network will stand side by side with 
Congress, law enforcement and fellow advocacy organizations who 
will use the collective voices and the power of our 142 members 
funds in 42 States in this country representing hundreds of 
thousands of women and men to end domestic trafficking of 
underage girls.
    Finally, we ask the facilitation and exploitation of girls 
through commercial exportation we all know is against Federal 
law. To ultimately address this, we ask the Department of 
Justice to aggressively investigate and prosecute those who 
break Federal law. We cannot completely prosecute our way out 
of this issue, and this is why we must address demand. 
Backpage, craigslist and others, what is your solution and the 
role you play in perpetuating this crime? Together, as a Nation 
that holds the highest values of human rights, we must come 
together now and create a no tolerance for buying and selling 
our children for sex. Thank you.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Richardson follows:]
                Prepared Statement of Deborah Richardson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Mr. Powell.

   TESTIMONY OF WILLIAM ``CLINT'' POWELL, DIRECTOR, CUSTOMER 
 SERVICE AND LAW ENFORCEMENT RELATIONS, CRAIGSLIST, INC., SAN 
                         FRANCISCO, CA

    Mr. Powell. Thank you, Chairman Scott, Ranking Member 
Gohmert and Subcommittee Members. My name is William Clinton 
Powell, and I am craigslist's director of customer service and 
law enforcement relations. I have served as craigslist's 
primary liaison with law enforcement since I joined the company 
in April 2004. I appreciate the opportunity to meet with you 
this afternoon.
    I know that Jim Buckmaster and Craig Newmark were initially 
invited. Given the short notice, Jim was not available to 
travel to Washington to testify today. And Craig is focused 
primarily on his role as a member of my customer service team 
and has not been involved in the day-to-day management of the 
company for about 10 years. I also want to echo the sentiments 
of speakers that have preceded me with respect to the horror 
and revulsion that we all feel about this issue. I also agree 
with Congresswoman Speier's characterization of the issue as a 
human tragedy because it is.
    As background, I would like to say a few words about the 
service that craigslist provides. We offer local online 
classified ad listings and discussion forums that are used by 
over 60 million Americans each month. Craigslist users post and 
respond to ads to help them find basic necessities in their 
everyday lives such as jobs, housing, secondhand items, local 
services, personal relationships and event listings. Today 
craigslist is far and away the leading classified advertising 
service used in the United States. Until recently, craigslist 
included an adult services category. It was created in 2001 at 
the request of craigslist users tired of seeing adult services 
ads mixed into the personals categories. They wanted a separate 
category for such ads, similar to what Yellow Pages, newspapers 
and other advertising venues have done for a number of decades. 
Working collaboratively with attorneys general, law 
enforcement, prominent NGOs, and other concerned parties, 
craigslist has developed industry leading best practices for 
adult services ads, including the following: Educating and 
encouraging users to report suspected trafficking and 
exploitation, prominently featuring law enforcement contacts 
and hotlines for reporting illegal activity, creating 
specialized victim search interfaces for law enforcement 
agencies, implementing a wide variety of technical screening 
and filtering measures, and manually reviewing every adult 
service ad prior to posting.
    To our knowledge, no other venue has adopted these best 
practices, and, in fact, very few venues adopted more than one 
of the measures. Indeed, craigslist, we feel, has been one of 
the bright spots and success stories in the critical fight 
against trafficking and child exploitation. We have been told 
as much by experts on the front lines, many of whom we have met 
with in person, from whom we have gathered helpful suggestions 
that we have incorporated into our approach. Craigslist has 
been virtually alone among the many advertising venues carrying 
adult ads in vigorously combating exploitation and trafficking.
    Regarding cooperation with law enforcement and other 
partners, craigslist facilitates billions, literally billions 
of human interactions each month, many of them face to face, 
among tens of millions of U.S. users, nearly all of whom are 
well intentioned law abiding citizens seeking legitimate ends. 
The incidence of crime related to the use of craigslist is 
extremely low. But despite our best efforts, it is not and 
cannot be zero. When craigslist is misused for illegal 
activity, we assist law enforcement in their investigations. 
The company has a long history of close cooperation with law 
enforcement. For example, with respect to the subject matter 
for today's hearing, we pride ourselves on our responsiveness 
to law enforcement. Our goal is to turn around inquiries within 
one business day, rather than the typically much longer 
intervals at other Internet companies.
    I have personally been told many times by law enforcement 
agents that craigslist is by far the most responsive Internet 
company that they deal with. We participate actively in the 
cyber tip line program administered by the National Center for 
Missing and Exploited Children, and ads that meet NCMEC's 
reporting guidelines are reported immediately. Moreover, we 
have been advised by NCMEC that we are the only such 
participant making direct reports among countless other venues 
that carry adult service ads. We have assisted sweeps, anti 
trafficking sweeps by the FBI and have been credited by agents 
with helping make those sweeps successful. We have engineered 
special tools to facilitate the work of NCMEC and law 
enforcement. These include creation of multiple special search 
interfaces that facilitate the search for missing children 
across all craigslist sites.
    In conclusion, I would like to reiterate two items that may 
be helpful to the Committee. First, craigslist discontinued its 
adult services section on September 3, 2010, and there are no 
plans to reinstate the category. Those who formerly posted ads 
in the adult services category will now have to advertise 
elsewhere, and in fact, there is evidence that this process 
began immediately after September 3. And second, craigslist has 
always taken pride in assisting law enforcement and we will 
continue to do so in the future. Once again, thank you for 
extending the invitation to meet with the Committee.
    [The prepared statement of Mr. Powell follows:]
              Prepared Statement of William Clinton Powell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Ms. McDougall.

         TESTIMONY OF ELIZABETH L. ``LIZ'' McDOUGALL, 
            PARTNER, PERKINS COIE, LLP, SEATTLE, WA

    Ms. McDougall. Good afternoon. Thank you, Chairman Scott 
and Committee. Thank you for having me here. My name is Liz 
McDougall. I am with the law firm of Perkins Coie, and I am 
here today because I am counsel to craigslist on online safety, 
security and abuse issues and I have been counsel to craigslist 
in that regard for over 2 years. I want to say, first off, that 
there is substantial common ground that we share with everybody 
on this panel today. We believe, as they do, that human 
trafficking and child exploitation is a heinous and insidious 
problem. We also agree, as Mr. Allen said, it is an extremely 
complex problem. It is a problem that involves the luring and 
seduction of victims. It involves the social conditions that 
make victims susceptible. It involves the culture and 
profitability of pimps and of organized crime.
    And it involves demand. It involves finding a way to stop 
the demand, the men, predominantly men who create this market. 
Because of the complexity of the problem, it comes as no 
surprise that there is a significant divergence and even clash 
sometimes of views as to how to solve this problem. This is 
where, I think, we and some the groups at the table today 
diverge. A number of the groups that have spoken have an 
approach toward solving the child sexual exploitation problem 
by the idealistic approach that, if you eradicate prostitution 
and adult services in any venue, you will eradicate victims. 
There will be no more victims if there can be no more services. 
Craigslist's approach, after getting input from interested 
parties, including NGOs, advocacy groups, law enforcement, 
politicians, and victims, craigslist has adopted a practical 
approach.
    Craigslist's approach has been to contain, control, educate 
and support and assist law enforcement. With respect to 
containment, craigslist created first the erotic services, then 
the adult services category so that adult content, which 
includes legal adult services, could be put in one location, 
and that both serves the purpose of making sure that people who 
don't want to see such content don't have to view that content. 
However, it also gives a single location for law enforcement, 
rescue groups, families looking for children, one location to 
go to. It is like in a city that zones a particular area for 
adult entertainment, adult activities. It is confined to a 
particular zoned area. The police know where it is, and they 
can look for illegal activity in that region.
    With respect to controls, craigslist implemented flagging 
that was commended as one way to help control this problem on 
the Internet. Craigslist also engages in active reporting. They 
have numerous technical measures to filter out ads that could 
involve trafficking, child exploitation or child pornography. 
And they implemented, in conjunction with the attorneys general 
and the National Center for Missing and Exploited Children, a 
telephone verification system, a credit card fee and 
verification system, and enforcement actions to stop some of 
the tools that were being sold that facilitated the abuse on 
craigslist Web site. There is one point I would like to be very 
clear about, and that is, as you know, I just said that the 
attorneys general and NCMEC were part of the request. It was 
their idea that craigslist charge a fee for adult services 
because it facilitates tracking the perpetrators behind posting 
the ads.
    Up to that time, craigslist had never charged for the adult 
services and had no intention to charge for the adult services. 
With respect to the education that craigslist provides, 
craigslist implemented and this was years ago, long before 
craigslist had become engaged with the attorneys general, a 
help page for the exploitation of minors that included 
reference to the national trafficking hot line.
    That page developed over time to include references to the 
reporting, the cyber tip line for NCMEC, as well as numerous 
local resources. Furthermore, on the entry pages to the adult 
services section, there were warnings and again references to 
NCMEC's cyber tip line and requests for users to also report, 
if they suspected illegal activity. Finally, with respect to 
referrals and assistance and support for law enforcement, in 
addition to making referrals to NCMEC, as Mr. Powell described, 
craigslist has been foremost in responding rapidly, 
cooperatively, to law enforcement, created specific tools, and 
pursuant to the joint statement, continued regular meetings 
with the attorneys general and invited meetings with anybody 
who was willing to listen.
    Indeed, the Georgia juvenile justice contacted craigslist 
with respect to a possibility for improving the ability to 
identify minors in photographs on-line. We responded to the 
call the very same day, followed up, and we were engaged in a 
dialogue about it. Unfortunately, the woman at Georgia Juvenile 
Justice suffered a death in the family, and although we 
followed up and hoped to continue that dialogue, they never 
responded. I would also like to point out in terms of voluntary 
action by craigslist, when craigslist implemented these 
measures, credit card verification and phone verification, a 
lot of that started to migrate over to the therapeutic services 
category on craigslist, and voluntarily craigslist implemented 
these same measures there.
    So in addition to phone verification, credit card fees and 
manual screening on the adult services, they implemented it 
voluntarily in therapeutic services. So craigslist has more 
than fulfilled the obligations under the joint statement, and 
now craigslist has also removed the adult services category. 
With respect to a couple of comments that were made, I do want 
to point out there has been reference to a study by the Shapiro 
Group and there have been some numbers quoted and relied on by 
that to indicate that craigslist is somehow the worst offender 
out there, rather than the most active, aggressive online 
service combating trafficking. There was submitted to this 
Committee, I believe, a report today by the Urban Institute 
that addresses the report that was published by the Shapiro 
report, and I will just ask you to look at that and to consider 
the comments when you, if you, indeed, choose to consider 
information that has been derived from that report.
    I would like to address Mr. Allen's point regarding reports 
made to NCMEC. He pointed out, correctly, that craigslist 
blocked over 700,000 ads from posting on its adult services 
category, and noted that only approximately 137 of those 
resulted in referrals to NCMEC. Well, if you look at the chart 
that was provided this morning to the Committee, it's a chart 
from ALEXA which tracks online activity. You will see that 
activity on Backpage spiked, both in May 2009 when craigslist 
implemented the credit card payment procedure, and it spiked 
because the perpetrators knew that was much easier then for 
them to be caught on craigslist, and they moved their traffic.
    You will also see a significant spike occurring at the very 
end of the graph which indicates September 3 when craigslist 
took down the adult services section and the traffic moved 
again over to Backpage. My point there is that we have 
identified only 137 referrals to NCMEC because the people that 
were trafficking children were smart enough to move their 
children off our site because we have never been, never been a 
friendly place for criminal activity. In fact, when we use 
guidelines to determine who may be a child in an image online, 
we apply a guideline of 21 years old rather than 18 years old 
just to err on the safe side. Finally, I would just like to say 
that if craigslist, if I could eliminate human trafficking and 
child sexual exploitation on the Internet or in the world, we 
would do it. We would do it in a heartbeat. Who wouldn't do it? 
With the removal of adult services, like the manual review, 
what has happened is that the ads have migrated to other sites. 
The evidence of that is clear. The AIM group report that I 
submitted with my testimony demonstrates that. This ALEXA chart 
that I provided demonstrates that. Consequently, craigslist 
fears that its utility to help combat child exploitation has 
been grossly diminished. However, we remain willing and able to 
work with the Committee to do whatever we can to continue to 
fight this absolutely horrific problem. Thank you.
    [The prepared statement of Ms. McDougall follows:]
          Prepared Statement of Elizabeth L. ``Liz'' McDougall

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you. I understand, Mr. Sensley, do you 
have to leave shortly.
    Chief Sensley. Sir, I have made other arrangements. Thank 
you.
    Mr. Scott. Okay. Thank you. Then I will recognize myself 
for 5 minutes. And I will begin with Mr. Powell. Mr. Powell, 
you made a promise to monitor posting. Is it logistically 
possible, with the number of postings to actually review on an 
individual basis postings on your site?
    Mr. Powell. Are you referring to the content that appears 
after we removed the adult services category?
    Mr. Scott. Either way.
    Mr. Powell. We have a number of technological measures that 
are used, along with some manual review that we feel does a 
good job at ensuring that the content that had previously 
appeared in the manually reviewed adult services category does 
not migrate to the other categories that appear on our site, 
the personals categories, other services categories. And, in 
addition to review by our staff of those categories in the past 
10 days, the chart that Ms. McDougall referred to with respect 
to increase in traffic on Backpage seems to support that.
    Mr. Scott. If someone is communicating with craigslist, can 
you identify, technologically identify which computer made that 
contact?
    Mr. Powell. Yes.
    Mr. Scott. And so you can track the person, if necessary?
    Mr. Powell. Well, in cases where we have received a request 
from law enforcement, we release the records to the district 
attorneys, to the police officers, to the FBI agents and they 
use the information we capture to do that tracking.
    Ms. McDougall. I can further elaborate if that is helpful.
    Mr. Scott. Okay.
    Ms. McDougall. What craigslist can provide is the e-mail 
address and IP address of the person that posted the ad. 
Craigslist can't from there identify the specific computer or 
individual. What you do then is contact, you can identify 
online who the service provider is for that IP address, and you 
can contact the service provider and get from them the 
information as to who owns that IP address. Law enforcement can 
do it by subpoena. You can do it in a civil suit by subpoena as 
well.
    Mr. Scott. Ms. Hakes what laws apply to Internet providers 
like craigslist that would make them criminally liable for the 
postings?
    Ms. Hakes. Mr. Chairman, I am not aware of any laws that 
would make them liable, unless there was evidence that 
craigslist was a participant specifically, whether they were, 
for example, conspiring with those who were misusing their 
site, that is, knowingly conspiring to violate the laws. What 
we have seen in the past----
    Mr. Scott. What about if they are not actively conspiring? 
What about just intentional neglect? Or they just don't care?
    Ms. Hakes. Mr. Chairman, I am not aware of any Federal 
statutes anyway with respect to neglect being the standard. In 
Federal law, the standard for prosecution would be knowing or 
willful. And when you are talking about in cases that have come 
up, the investigations that have been done by the FBI and 
others, I am not aware of anything that shows us that 
craigslist might be criminally liable.
    Mr. Scott. Well I'm not talking about just craigslist. I'm 
talking about any of them. If there are no laws on the books 
now, are there any potential laws we could put on the books 
that would pass constitutional muster that would be helpful in 
tracking down people that make these postings?
    Ms. Hakes. Mr. Chairman, the Department of Justice would be 
more than happy to work with the Committee and consult with you 
on whether or not there are tools with respect to the topic 
that you're discussing. However, I would say that I believe 
that at this point, we have the proper tools. We have what we 
need to prosecute the guilty, that is, the people who are using 
the Internet, and it isn't just craigslist and of course it 
isn't just prostitution of children, it is sexual exploitation 
of children in all its forms. Many predators, many of those who 
would prey on children, utilize the Internet, misuse the 
Internet in order to prey on those children, to traffic in 
child pornography, to advertise children for child 
prostitution. And I don't think anyone would here would propose 
closing the Internet.
    Mr. Scott. You have two parts of this transaction. One is 
the posting of the availability of the children, and the other 
is of the demand side. Are there any efforts to essentially set 
people up so that anyone who goes on the Internet searching for 
people can get ensnared in a sting operation?
    Ms. Hakes. Yes, sir, Mr. Chairman. As a matter of fact, 
over the last year, in the western district of Missouri, 
Operation Guardian Angel has en in effect, and that is a law 
enforcement operation utilizing Internet service providers like 
craigslist to post adds suggesting that they have children who 
are underage that they would provide for sex. In Operation 
Guardian Angel, several people answered the ads. Several people 
made arrangements over the telephone to meet with who they 
thought would be underage children for sex and they were 
prosecuted for those crimes. And some of them received----
    Mr. Scott. And what is the typical penalty when they get 
caught?
    Ms. Hakes. They received very substantial sentences 
depending on the crime under which they were prosecuted. It 
ranges anywhere, as I said in my earlier statement for 
trafficking in children and child exploitation could be as 
little as 5 years. It could be as many as life.
    Mr. Scott. The Dateline NBC with Chris Hansen----
    Ms. Hakes. To Catch a Predator, yes, sir.
    Mr. Scott. The penalties that they publish are in the 
matter of a months, a couple of months; is that not typical?
    Ms. Hakes. No, sir. That would be State and local. In my 
experience, when I was assistant district attorney, some of the 
charges that are utilized in State and local offenses for 
enticing a child in certain jurisdictions might be 
misdemeanors. In Federal law however, it is a felony. And 
enticing a child over the Internet carries a mandatory minimum 
penalty of 10 years in prison.
    Mr. Scott. Now how much cooperation is there, Federal State 
and local law enforcement in these investigations and 
prosecutions?
    Ms. Hakes. Well, as I said in my statement, we are very 
strongly supportive of the Innocence Lost National Initiative. 
We believe that it has been extremely successful. And one of 
the things that we are doing in the National Strategy for Child 
Exploitation, Prevention and Interdiction, is working with all 
of our partners, community-based, law enforcement-based, 
industry-based, in order to establish what are the best 
practices that we are all engaging in, expanding our 
cooperation and collaboration with respect to child 
exploitation, and we are looking into whether or not the 
Innocence Lost National Initiative should be expanded from 38 
task forces and working groups that exist now to more areas 
across the country.
    But I would say that where we have the Innocence Lost 
National Initiative Task Forces and working groups they are 
very successful. Since 2003 we have located over 1,100 children 
and federally and State we have prosecuted more than 600 
offenders who have received some very substantial sentences.
    Mr. Scott. Thank you. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I appreciate you 
responding so quickly to a letter I wrote requesting this 
hearing based upon the fact that so many victims groups had 
contacted me and other Members of Congress. So I appreciate 
that.
    Ms. Frundt, thank you for being here. You are to be 
admired. People like you are really important to solving 
problems, and I admire you for your courage just to come here 
and talk to Congress and tell your story. So thank you very 
much for being here.
    Craigslist, it is good to hear that this site has been shut 
down. We want to make that clear, that y'all have done that. Is 
that correct, Mr. Powell?
    Mr. Powell. That is correct, yes.
    Mr. Poe. Good. There are many issues. You have all talked 
about the problems and the issues. I am concerned as a former 
judge and prosecutor, about the victim. The girl, the young 
lady is not a criminal. But yet in our State courts, because of 
different reasons and excuses, they are still treated like 
criminals. To get into the system, to get any kind of treatment 
they are treated like criminals in the domestic trafficking. 
International trafficking there are some services. We have to 
fix that problem. We have a social duty to fix that problem so 
the things that happened to Ms. Frundt do not continue to 
happen to young women in our country.
    The people involved, besides the victim, you have got the 
trafficker, and you may have been present when I made comments 
about what ought to happen to traffickers, at least what a 
Texas Ranger thinks ought to happen to traffickers, Chief 
Sensley; the old comment, well, get a rope. Anyway, but then 
you have got the consumer. And I think we need to zero in on 
the consumer who pays for this crime, who pays in the sense 
that they are able to exploit children because when there is a 
market, this crime will continue. When there is a buyer, and so 
we need to make to more difficult for the consumer who seems to 
be, I think, traditionally in this type of crime, gets away 
with it.
    Now, Ms. Hakes, you mentioned the fact that the Missouri 
U.S. Attorneys Office had a project. But I understand they only 
prosecuted 10 cases; is that correct?
    Ms. Hakes. I am not sure of the exact statistic, 
Congressman Poe. I can get that for you, but it was not a huge 
number.
    Mr. Poe. I think it is 10. Seven pled guilty. So of all of 
these cases happening in the United States, on the Federal 
level we have seven people that pled guilty, because other 
districts, I'm talking about the consumer, the buyer, the john, 
the other criminal. Is that correct?
    Ms. Hakes. No, Congressman Poe. Not exactly. I can't give 
you the exact number of how many people have pled guilty or 
been convicted to date, but we have expanded Operation Guardian 
Angel. Other districts are employing some of the same 
techniques. I don't want to get too much into that in a public 
hearing. But I can assure you that the department and a variety 
of districts in the Nation are pursuing those who pay to 
sexually assault children.
    Mr. Poe. Get me those statistics if you will, because the 
statistics that I have that the Missouri U.S. attorney is the 
only one that is doing this and they got seven out of 10. To me 
that is not near good enough. You know, we talk about the 
Internet and how it is being used by criminals. Well, maybe law 
enforcement we ought to figure out a way to do this. When we 
capture these consumers, these people that pay for this crime, 
this service, if they are convicted their photographs ought to 
be on the Internet. We ought to advertise to the world who 
these people are that have exploited young women in the United 
States.
    As a judge, I used to try to do some innovative things. But 
we need to be thinking about how we can use the Internet to 
advantage of enforcement of the law, because if these guys all 
of a sudden start seeing their photographs on the Internet they 
may stop this conduct. But anyway, that is a responsibility we 
have to figure out some solutions.
    But Chief, in your district, tell me how you deal with a 
sexually exploited child that has been trafficked and you come 
in contact with her. Do you all file on her for prostitution? 
What happens in the domestic situation?
    Chief Sensley. Well, Congressman Poe, part of the problem 
is that there is a lack of resources when it comes down to the 
contact of the victim of this crime. As it stands, most of the 
work that I have been doing in northern California has been out 
of Congressman Lungren's district in the Sacramento region 
because it is one of our most prolific areas where this is 
going on at a tremendous rate and spreading throughout that 
region. We have four multi disciplinary task force of local, 
Federal, State enforcement agencies and a multitude of non 
governmental agencies to respond to the problem.
    Fortunately, there are a few nonprofit organizations that 
are, have come into play, like Courage House out of the 
Sacramento area to provide a place for these victims to go to, 
which is part of the problem, because if we can't get them out 
of the law enforcement context, in order to remove them from 
the environment which they are preyed upon then they go right 
back into the system because they find that it is a hopeless 
environment.
    So, in effect, we are really at a struggling point, having 
effective laws and tools to really deal with the perpetrators 
because, as you mentioned earlier, oftentimes at the State and 
local level there is a 1-month or a 2-month penalty for the 
pimps who are, in fact, better classified as traffickers. And 
that is a cost of doing business for them. They are willing to 
suffer that for the hundreds of thousands of dollars that they 
can draw in from this on an annual basis. So in effect, we are 
struggling when it really comes to it for lack of resources, 
for a lack of places, quite frankly, and that is a significant 
issue to turn these victims away from the system.
    And so it keeps officers from having to put them into the 
justice system as criminals just as an attempt to remove them 
from their victimization. But, again, as I stated earlier, it 
becomes a matter of revictimizing in another way.
    Mr. Poe. One last question, if I may, Mr. Chairman, on this 
issue. We have a lot of work to do. But we need to make it so 
that the consumer, or the buyer and the trafficker, it is not a 
cost of business. The penalty is too great for them to stay in 
business. But more importantly, I think that we need to find 
and take care of these young women, these victims, whether it 
is on the State or local level and find a way where they don't 
lose hope and have their spirits broken because of the crime 
that has been continued to be committed against them. Thank 
you, Mr. Chairman.
    Mr. Scott. The gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
this hearing, and to the Ranking Member. And I would like to 
connect to my friend and colleague from Texas and build on the 
testimony. Forgive me for being delayed and not being able to 
hear all of the testimony. But many of you I am familiar with, 
and I am also a speed reader to assess some of the comments 
that you have made. So first of all, let me thank you for the 
work that you do. I chair the Congressional Children's Caucus 
and we have looked at these issues, and I have been engaged 
with Ernie Allen for a number of years, both in my own district 
and here in Washington, D.C.
    Let me pay tribute not only to Tina Frundt, who I'll ask a 
question, but to a constituent of mine by the name of Catherine 
Griffin, who struggles in my own community, Chief Sensley, if I 
am reading it correctly, to the question of resources. And so 
you hit the nail on the head. And as I ask the Chairman's 
indulgence, let me first begin, Chief Sensley, I am reading it 
instead of looking down. Let me first of all speak to Mr. 
Powell and thank him for his presence here. What we would like 
to think is when witnesses come, that, as Members pose 
questions we are being provocative so we can secure real 
answers to the problem. And my first question, since craigslist 
has such a brand, and I think you would agree, media has its 
way of interpretation. And you would agree that the last month 
was not a good public exposure for craigslist.
    People are only led, good or bad, by what they see. And the 
first initial response appeared to be stonewalling, lack of 
response, and it gave all of us a bad taste in our mouth. I 
think the real question is, as we look, because you now can 
stand as an example for a lot of Internet sites and Web sites 
and other levels of technology that continue to proliferate. 
What took you so long to immediately stop? How can we be 
convinced that when the heat goes away, the material results of 
income, value that you get from these services does not find 
itself back on your site?
    And the last question to you is, I had the impression that 
you took off adult services, but individuals migrated to other 
sites on craigslist and are just proliferating and having a 
good time. I gave you three questions but I'd appreciate, I 
hope that you can remember them. Otherwise I will try to 
remember them and call them again.
    Mr. Powell. To respond to the first question regarding the 
timing, I don't have the specific information about why 
September 3 was selected. But I can assure the Members of the 
Committee and others that we do not have any intention to 
restore that category. I think there is a sense that in some 
ways, taking that step may be a step backward in terms of 
addressing some of the core causes of the issue. My hope is 
that the migration that we have seen of these particular ads to 
other Web sites, and it is not to other parts of craigslist. We 
have seen some fairly strong indications that the measures we 
have taken and are continuing to take have prevented that.
    But the other sites that have been mentioned previously, we 
would hope that they continue to adopt some of the practices 
that craigslist has had in place for a number of years, 
including working collaboratively with the National Center for 
Missing and Exploited Children, providing reporting mechanisms, 
working closely with law enforcement.
    Ms. Jackson Lee. I don't want to cut you off but I have a 
short time and I may be overlapping. No amount of money is 
going to cause craigslist to reinstitute in another name this 
kind of site.
    Mr. Powell. I can't answer that directly because I am not 
directly involved with the decision-making process for that. 
But what I can tell you is that----
    Ms. Jackson Lee. Mr. Powell, please. I recognize layers of 
responsibility, and I am keeping a tone of respect because I 
understand you are a representative. Mr. Powell, please. No 
amount of money will cause you to reinstate that site? And are 
you suggesting to me that business decisions and judgments may 
play into this site coming back again? I have already given you 
compliments for being a standard bearer for change, but now I 
am hearing that it might come back again.
    Mr. Powell. No, no. What I am saying is that we do not have 
any intention to bring that category back, and that money is 
not a consideration as we make our decisions.
    Ms. Jackson Lee. Chief Sensley, where does that place you? 
And what then do we need to do in Congress? You see, we have a 
tough challenge of the First Amendment. And I could be 
categorized very openly so as a progressive in a dilemma. But 
let me tell you what my position is. Shut them down, period. 
But when you hear the answer of Mr. Powell, who I respect, and 
he has indicated as best he could, but what does that say about 
the potential proliferation of these sites elsewhere, which 
plays into your work, I take it.
    Chief Sensley. It does. Ma'am, it plays very significantly 
into this work. And to the credit of craigslist, I will agree 
that they have made significant strides and provided tremendous 
resources in terms of when the problem is brought to their 
attention and a request for assistance. On the other hand, we 
do have a difficult task. You have a difficult task when it 
comes to the legislative of piece of it because of our, as it 
goes, freedom has its price. However, I would like to hear the 
affirmative response that says this will not come back under 
any circumstances, which I think was the answer that you were 
looking for.
    Ms. Jackson Lee. I was. And Chief, and I would ask the 
Chairman if I could have an additional minute. I hope I can 
speak quickly. He is yielding. Thank you. Thank you, Mr. 
Chairman. This is an excellent hearing. Let me just go back so 
you can say on record again. You mentioned the word 
``resources.'' Why don't you say it again. You need more 
resources to do what?
    Chief Sensley. We need resources to train and educate law 
enforcement. We need resources to provide for shelters and a 
place to get these children off the street and away from being 
put into the system as criminals. And that has to be done 
outside of the justice system with our non law enforcement 
partners like Ms. Frundt has just spoken to very eloquently in 
terms of the need there. That is where we need resources. We 
also need resources to allow law enforcement the time to invest 
in this, because this is not the type of crime that is driven 
by, its driven by time and investment of follow up and follow 
through and recognition that we have to do this in a victim 
centered approach rather than trying to complete an 
investigation so that we can get it before the prosecutor. We 
have to keep the individuals who have been victimized at the 
center of this effort. That takes time and resources.
    Ms. Jackson Lee. Let me thank you. Let me move quickly to 
Ernie Allen, who I remember when we were first confronting the 
issue of HIV/AIDS. Everybody was whispering. Until we took it 
to the national level of exposure, billboards, everyone 
speaking about it around the coffee pot, in hallways and byways 
and local community houses, et cetera. That people began to be 
comfortable with acknowledging I was HIV infected or 
acknowledging that I need help. I notice some of the 
recommendations that you have made. You've been very good with 
the organization on getting us to understand missing, abused. 
Exploited is not an understandable word. So here is my point. 
You have got four points here that I see that can be meshed 
into legislation. I know there is some legislation Members have 
spoken about that I will be reading. But it seems to talk about 
taking this to another level. We need people talking about that 
these have are and not criminals. We need to be able to say to 
the Federal Government, it is worthy of your enhanced 
involvement. And we have already talked about resources. And 
then the only way that you get communities talking about this 
is that you put this right up to them. You put this right to 
their faces, principals and teachers and school boards and 
pastors and others. Ernie, what do you say about that? And have 
we done that?
    Mr. Allen. We have not done that. I think we have begun to 
do that. One of the quotes I included in my testimony was a 
quote from a police commanding officer many years ago who said, 
the only way not to find this problem in any community is 
simply not to look for it. I think America has begun to look. 
But you are exactly right. We have a generation of kids who are 
sexualized. Many of these victims become compliant. You know, 
what we have got to do is educate the American people. And you 
are exactly right. Using the HIV/AIDs example, we have educated 
America and responded to the challenge over tobacco. We have 
responded in terms of seatbelts and car seats.
    Ms. Jackson Lee. There you go.
    Mr. Allen. This is going to require social change and it is 
going to require enormous public awareness because these kids 
are hidden victims.
    Ms. Jackson Lee. Let me have just great respect for the 
smokers in America because they are there and they have their 
rights. But I know they would raise their hand and say boy, it 
is pretty uncomfortable to be smoking in America because of the 
communities sense, this is what Judge Poe is speaking of.
    Besides, I didn't mean that--realizing the actor, meaning 
perpetrator, we have got to make it darn uncomfortable and it 
is not.
    Mr. Chairman, I just want to pose this question, if I could 
move toward my more personal vision. But let me ask the 
Department of Justice and then just conclude with Tina.
    I heard something that I hope was inaccurate. Maybe I don't 
have the facts, and it may be some underpinnings of something 
that may be positive. But am I hearing something about Justice 
Department looking at lessening penalties on sex perpetrators, 
people in porn, or is that what you all are doing? Do you know 
what I am saying?
    Ms. Hakes. Congresswoman Jackson Lee, I am somewhat 
familiar with what you are talking about.
    Ms. Jackson Lee. I am against it, but I yield to you.
    Ms. Hakes. Speaking as a prosecutor, Congresswoman Jackson 
Lee, I personally am for heavy penalties on those who exploit 
children in all their forms, as is the Department of Justice.
    The Attorney General, when he rolled out our National 
Strategy for Child Exploitation, Prevention and Interdiction, 
said publicly that this was more than a crime issue for him. 
This was a legacy issue for him because this was a very 
important issue to him, and we have got to protect the children 
and prosecute the offenders and we are going to continue to do 
that.
    What you are referring to, I believe, was a letter from 
someone in the Department of Justice to the Sentencing 
Commission staff where he indicated that a review of the child 
pornography guidelines might be advisable by the Sentencing 
Commission. But the Department has not--and I would be shocked 
if they did--issued any opinions as to saying that the 
penalties for child exploitation should be lessened. We have 
not done so.
    Ms. Jackson Lee. I support a wide range of lessening of 
sentencing, but I can assure you, I hope that we will silence 
that person in their letter writing, not in any other way, but 
to silence that letter and to extinguish it before it gets to 
any place of review.
    I want to conclude, and unless anyone else wants to 
comment, but Ms. Frundt, I have legislation that deals with 
retaining the DNA of sexual predators in a bank focused on 
child sexual predators, but in any event a DNA bank, so that 
Chief Sensley can computer in if he gets someone and it pops up 
that this individual was in Iowa 5 months ago with the same 
kind of behavior.
    Chief, you understand? And it is a question of whether we 
have that finite system, because you could go into a big DNA 
bank and be there forever, but if you had it separated by the 
fact that this was a perpetrator of children's crimes.
    However, you were a victim as well and have come forward. 
Can you just share with us what you think the single thing is--
you have heard a lot of what the Federal Government can do. You 
have heard about the children aspect and you heard craigslist. 
Do we need to have people rise up and accept their good 
citizenship and say they will not have these kind of sites on 
any form of public, if you will--when I say ``public,'' a 
commercial enterprise, where people are making money off of sex 
crimes.
    Ms. Frundt. I think it is very difficult to shut down every 
site that is on the Net. You shut down one and there will be 
another one. However, I truly agree with the Chief here saying 
if we are going to have these sites, let's do investigations 
properly. Again, I am not exaggerating when I say Myspace, 
every pimp has a Myspace page. We know this. If we are giving 
them the information, printing it out, giving them the Web 
sites, how to contact them, so let's do an investigation off of 
that. Let's collect--why are service providers collecting all 
this information, giving it to the police? Shouldn't they be 
taking that response and doing it themselves to create cases? 
We basically helped create these cases of finding out 
information, collecting all the data that the police need to 
make sure they actually prosecute and do what they are supposed 
to and not hold the children on a material witness warrant in 
jail. And so let's take that up.
    And I would be honest and tell you this. It is difficult 
for the police. They don't have the funding and the resources 
as well for it, but it shouldn't be an excuse.
    Ms. Jackson Lee. So taking it to the next level of exposure 
nationally, where people realize that this is a crime against 
humanity----
    Ms. Frundt. Yes.
    Ms. Jackson Lee. The resource question to help the Chief 
build cases and the point about the child is not--or the person 
is not the victim. But I would expect you would say it would be 
pretty good to make the perpetrator, the offender, very 
uncomfortable and that society would almost extinguish it being 
credible for somebody to act in that behavior.
    Ms. Frundt. You know, we mention all these cases where 
traffickers have gotten really high sentences around the 
country and around the United States. In Minneapolis, they have 
done it, here in D.C. Where a trafficker got life. You didn't 
hear one time about the criminals who abused the child, who 
bought sex from the child anytime at all. There wasn't a 
mention in any of these cases whatsoever one time where they 
actually went after the man who raped the child, and so we 
really need to--I think we have a misconception that these men 
are men who have a little bit of money and they have lower 
jobs--no, that's not true. Maybe we get afraid because of who 
they are, we don't want to shed the light on that.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I could pursue 
this.
    Mr. Scott. We are going to have another round of questions.
    Ms. Jackson Lee. Oh, you are, okay. Well, let me just thank 
you, Mr. Chairman, for indulging. And I support a lot of the 
framework which I think we can also operate beyond the other 
legislative initiatives that have been placed before us. Thank 
you all for your testimony. Thank you, panel, very much.
    Mr. Scott. Thank you. I have just a couple of other 
questions.
    Mr. Powell, just in the news the other day, when it was 
reported about you taking down the site, you mentioned 
something about the international site might not have been 
taken down, the Adult Services. Can you tell me what they were 
talking about?
    Mr. Powell. There are remaining erotic services categories 
outside of the United States, including Canada. I think Ms. 
McDougall might be able to speak more effectively to that, 
because to my understanding there are a number of issues 
country by country, as well as legal issues for that.
    I can tell you that something on the order of 97 percent of 
our viewers and use is within the United States and Canada.
    Mr. Scott. Can a United States person access a foreign 
craigslist site?
    Mr. Powell. Yes. Anyone, anywhere, can access any 
craigslist site anywhere.
    Mr. Scott. So what is the significance of taking down the 
site in the United States?
    Mr. Powell. Well, the site in the United States was set 
up--and again, Ms. McDougall can probably explain this more 
effectively--as part of an arrangement with a series of 
Attorneys General back in last year, and I think the intent was 
to do a number of things: capture credit card information, 
capture phone information. We decided on September 3rd to 
remove that category and, again, have no intention of 
returning----
    Mr. Scott. If I am in Washington, D.C. And accessing the 
Canadian site, can I advertise services that would be available 
in Washington, D.C., on the Canadian site?
    Mr. Powell. Yes, you could, but there would be virtually no 
value whatsoever because the individuals who view the site, 
say, in Montreal, are living in Montreal.
    Mr. Scott. How about someone in Washington, D.C. Viewing 
the Canadian site?
    Mr. Powell. I am not sure I understand.
    Mr. Scott. You said you could access any site from 
anywhere.
    Mr. Powell. Correct.
    Mr. Scott. Within Washington, D.C., accessing the Canadian 
site, can I see the ad posted there by someone offering 
services in Washington, D.C.?
    Mr. Powell. Yes, you can. If you are in Washington, D.C., 
can you see the site in Montreal?
    Mr. Scott. Right.
    Mr. Powell. Yes.
    Mr. Scott. Can I post services that would be available in 
Washington, D.C., on the Montreal site?
    Mr. Powell. Yes. But again, the utility is virtually zero 
because the traffic that views the Web pages for Montreal or 
Seattle or Miami are local populations. So if I were to place 
an ad for Washington, D.C., for something that I was selling or 
a job or, in this case, a services ad in another city, there 
would be no value whatsoever because nobody near me is a patron 
of that.
    Mr. Scott. How long would it take people to figure out that 
the site that they were to be looking at is the Canadian site?
    Mr. Powell. That I can't answer. But what I can tell you 
from, again, my impression of what has been happening over the 
past 10 days is that the people who are creating these ads, who 
had previously used the Adult Services ads, have decided that 
there is no value in using craigslist anymore. So they are 
moving to other sites.
    Mr. Scott. Mr. Sensley, you indicated that this was so 
prevalent. If the ads are there as big as day for everybody to 
notice, why aren't you stinging people right and left, both the 
people that are putting on the ads and the people that are 
responding to such ads?
    Chief Sensley. Mr. Chairman, there are a number of things 
that are going on in various cities around the country 
utilizing the various Web sites that are advertising this 
behavior. Quite frankly, the problem is, if law enforcement 
resources were to have a fractional impact upon it, then it 
would draw upon nearly every resource in every department in 
order to do it. It is that large. What it really comes down to 
it, Mr. Chairman, the craigslist is really one of many, and 
again, to their credit, not nearly the worst when it comes to 
down to this problem.
    Mr. Scott. You are saying if you went on a sting operation, 
you would be just catching people right and left?
    Chief Sensley. Sooner or later they catch on to us. Law 
enforcement, as it is, Mr. Chairman, is----
    Mr. Scott. There ought to be some risk in posting such an 
ad. There ought to be some risk in posting such an ad.
    Chief Sensley. Absolutely, but the the risk is not there 
now, sir.
    Mr. Scott. Well, that is because there is no one stinging 
people. I mean, the police officers are not responding to the 
ads, setting up meetings.
    Mr. Allen. There actually--there are some. Philadelphia 
police just did a sting targeting craigslist users. A Polk 
County, Florida sheriff just did a sting. Clearly one of the 
messages here from a lot of these ads is they have ceased to be 
subtle. They are blatant, they are overt. And on that basis, I 
think a reasonable case can be made that there is knowing and 
intentional selling of services via the Internet. So I think 
there could possibly be criminal jurisdiction. Even under the 
Communications Decency Act, there is just civil immunity. There 
is not criminal immunity.
    Mr. Scott. If the ad is there, why can't we create some 
risk in even posting the ad by having the police respond to the 
ads and figuring out who posted it and catching them and 
prosecuting?
    Mr. Allen. I think that is happening. I just don't think it 
is happening widely enough.
    Mr. Scott. Wasn't it the prosecutors--DOJ, is it a matter 
of resources?
    Ms. Hakes. Mr. Chairman, I believe that we have a decent 
record of success--in fact, I would call it an excellent record 
of success--since 2003 with our Innocence Lost National 
Initiative. It is not inconsiderable to say that we have 
prosecuted more than 600 offenders at the State and local level 
and recovered more than 1,100 children. So while I would agree 
with Mr. Allen and Chief Sensley, and in fact, we agree on our 
National Strategy in the document----
    Mr. Scott. Well, 600 is about on the magnitude of one per 
congressional district, one and a half maybe per congressional 
district, and this is something that is just widespread and 
notorious. You ought to be catching people in every city and 
town.
    Ms. Hakes. Mr. Chairman, I would say, as we concede in the 
National Strategy, child exploitation, generally, is at an 
epidemic level: child pornography, trafficking, as well as the 
commercial exploitation of children. It is one of the reasons 
that we have recommitted ourselves to this fight against child 
exploitation. We have launched a National Strategy Working 
Group. We are working with our partners to develop ideas----
    Mr. Scott. Let me ask, Mr. Sensley, if you decided to set 
up a sting, how long would it take you to catch somebody?
    Chief Sensley. Mr. Chairman, quite frankly, it doesn't take 
very long in terms of--well, long is relative.
    Mr. Scott. Half an hour?
    Chief Sensley. Well, it would take half an hour for someone 
to hit, or less than that. Someone would hit on the interest 
that is being put out before them. But it may take several 
hours to actually make contact and be able to bring that person 
to justice. So for one person, it could be a day-long operation 
to bring one person down. They hit on these----
    Mr. Scott. If you went on the Internet and within a day you 
would have some somebody caught, right? So you so it every day, 
you are talking about one person, one police officer; by the 
end of the year we have 300?
    Chief Sensley. Mr. Chairman, in theory that is possible, 
one person a day. However, it takes more than one police 
officer to do it, and the resources on the average drain most 
police departments in focusing on this alone.
    Mr. Scott. Well, once you start going after people, 
presumably you would have less of a problem because people 
would feel that there would be some risk involved.
    Chief Sensley. I agree, Mr. Chairman. I certainly hope that 
that is the direction we are going.
    Mr. Scott. Let me ask two other questions.
    Ms. Frundt, what services do the victims need and how much 
do these services cost?
    Ms. Frundt. I think that is a very important question 
because we have been mentioning all these ways that could 
happen or the 1,100 victims in Philadelphia, Florida. I would 
like to say how many receive additional services, how many are 
still receiving victim services, how many were placed in 
housing programs?
    So, when we do these rates, I am going to have to go with 
Chief Sensley when he said you do these raids, you are going to 
need services, 110 percent. This is not something that you need 
2 years now or 6 months until the case is over. This is 
continuous services, not just housing. But if you can't--again, 
there are small amounts of housing. So you are doing housing. 
You definitely still need direct services through outreach, a 
hotline, 24-hour care because these victims--this is not nine 
to five. So after 5 o'clock when they are having issues at 
home, who are they going to call?
    So when we saw these cases, and there are Innocence Lost, 
which I am very familiar with--how many receive services? How 
many were not detained for their own safety?
    Mr. Scott. What kind of services are needed and how much do 
the services cost?
    Ms. Frundt. To run a group home is $600,000 a year. For a 
month of services that is not in a group home would be about 
$5,000 a month for one child and that includes everything, all 
services, all trauma care, long-term care.
    Chief Sensley. Mr. Chairman, if I may answer that, that is 
part of the problem in the theoretical aspect of a single 
operation to bring in one person. If there isn't a place to 
place the victims, then they go back into the system. There has 
to be a multidisciplinary and very collaborative effort.
    Mr. Scott. You mentioned the fact that the perpetrators 
make a lot of money. Do you ever get forfeiture----
    Chief Sensley. Yes, that comes out of these types of----
    Mr. Scott. How successful are you in getting----
    Chief Sensley. That forfeiture is generally when we operate 
on the organized crime level. Rarely does it come out on the 
individual level with the, for lack of a better of term, 
street-level pimps.
    Mr. Scott. You can't get houses and cars?
    Chief Sensley. Mr. Chairman, these perpetrators are so 
skilled at squirreling away money and behind different levels, 
it takes literally years of the court process to even find it.
    Mr. Allen. Mr. Chairman, on the customers--we have been 
working with the National Conference of State Legislatures, and 
a number of the State legislatures have been enacting laws 
providing for asset forfeiture, restitution. In a lot of these 
cases the penalties, the criminal penalties aren't very high, 
but they are making it painful for the customers in these 
cases. So I think there is enormous benefit in exploring 
techniques that--and I think it will also create deterrence and 
attack the demand side by making it hurt for these guys, even 
if it is only financial, and they can help pay for the 
necessary treatment and the necessary follow-up that these 
victims need.
    Mr. Scott. Let me ask one final question. What preventive 
services, prevention initiatives, can we pursue that would 
reduce the chances that young children would get involved in 
this? Ms. Tiapula?
    Ms. Tiapula. Thank you, Chairman. The prevention needs to 
look at systems approaches. We need to be talking about child 
protection. We need to look at the funding status for juvenile 
justice and criminal justice, which right now do not work 
together as they should on this issue. Our children are in 
foster care. We need to be working with the foster care system.
    The prevention options are there. We know the children who 
become victims of trafficking, and right now we criminalize 
them as adolescents instead of providing services at an earlier 
age and looking at gaps in systems.
    Ms. Richardson. Mr. Chairman, if I may, I want to 
underscore two points. One that you just made is that what we 
have found, that both parents who are responsible for the care 
and protection of children are not working together. So we 
could eliminate a lot of redundancy if we would all coordinate 
the services and realize that it is in our vested interest to 
work together.
    The second point I want to make is underscore, Tina, what 
you were saying. Our analysis has shown that if we were doing 
analysis of what it would take to house and care for young 
women in a specialized facility, it would be less than what it 
takes for that young woman to be held in juvenile detention.
    Mr. Scott. Thank you. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    It seems to me that we might be able to figure out a way 
that the solicitation itself, with the intent to induce a minor 
child and under the Mann Act, with the intent to induce--in 
other words, you don't have to actually induce the child; but 
with the intent, you place the ad, that makes it a Federal 
offense. So we might need to work on something that we already 
have under the Mann Act to make inducement a crime, without 
having to go through the entire process that you mentioned, 
Chief, that takes a lot of work. So the placing of the ad may 
come under that purview as well.
    We have several issues. We have a cultural issue where we, 
as a culture, have to realize that these young ladies, for the 
most part, are crime victims. They are victims. They are not 
criminals.
    We have the second issue of making sure that these young 
victims understand that they are going to be treated as a 
victim, so that they don't lose hope when they are in a 
situation where they feel like, even if I tell somebody, they 
are going to treat me like a criminal. So we have to remove 
that stigma that they understand that we as a culture are going 
to treat them as crime victims.
    And then down the road, we have got to have a lot of 
resources, and that is part of the problem why, in my opinion, 
not a whole lot has been done, because it is going to take a 
lot of money to rescue these people that are in the situation 
and take care of them.
    So we want to do something I think to make the situation 
better, not worse, not make it more difficult, and let the 
criminals know that they are not going to be able to get away 
with this. We are going to go after them with everything that 
we can and to put them out of business and make them pay; and, 
as you said, Mr. Allen, the price is too heavy. They will go 
out of business because the penalty is too great. And that 
includes the trafficker, includes the person that wants to use 
this as the demand, the ``john'' as we call them, and I still 
like the idea of posting their photographs on the Internet.
    So anyway, thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you. Gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, I think as we conclude this 
hearing, what we have gleaned is what we all knew I guess 
coming in, is that this is not a victimless crime, and that the 
rich or comfortable persons, whoever it might be that is 
engaging, whatever category they fall in, are not doing--in 
essence, they are doing harm. They are not harmless. It is not 
harmless.
    And it seems to me that for, if you will, throughout our 
history sex crimes have been viewed as just harmless, or it is 
the victim's fault or their parents gave them away so they 
could be utilized. So I believe it is crucial that we raise the 
ante on the heinousness of this crime, and as the judge 
indicated and as the Chairman indicated, that no one would get 
away.
    Ms. Frundt qualified her costs. Chief, throw out a number 
because Chairman Scott made a good point, and I really 
appreciate the work of the Justice Department. It is resource-
based, but that is about one child per congressional district; 
and add the Senate with a hundred Senators, and I know that we 
are probably not touching, even minimal, the depth of the 
problem in this country alone.
    Chief, what would it take because you are one police 
department? We haven't heard from New York's police department. 
We haven't heard from Chicago, major cities. You are in a 
smaller area, but California is big, and we certainly haven't 
heard from Texas yet. What would be the cost on the law 
enforcement side and outside of the Federal side?
    Chief Sensley. Madam Congresswoman, I would like to be able 
to give you an exact figure, but I will say that I agree that 
an example needs to be made, as the Chairman was emphasizing as 
well, that if we get out there and we start stinging them, the 
word will get out and it will make a difference.
    Ms. Jackson Lee. I won't hold you to it, but if you had so 
much more money, you would be able to do--make a better dent.
    Chief Sensley. I would say that if in the Sacramento 
region, with the resources I know are available and willing and 
standing by to try and make a difference, to give us a 1-year 
period and a minimum of $2 million to make it happen, we will 
provide that----
    Ms. Jackson Lee. What is the population you would be 
covering?
    Chief Sensley. We would be covering for this particular 
region. And the multicounty cooperation that we currently have 
in this, we are looking at a population area in excess of 10 
million people.
    Ms. Jackson Lee. Well, I won't come back at you and hold 
you to that number, but you said a very important point. This 
probably works better if there is collaboration over 
jurisdictional lines: counties, cities. And therefore you could 
make the argument to the Federal Government and the taxpayer 
that I will leverage the money. Is that what you are saying?
    Chief Sensley. Yes, ma'am.
    Ms. Jackson Lee. Because that is very important.
    Chief Sensley. Very important. And for the Eastern District 
of California, where we are currently working out of the U.S. 
Attorney's Office, with their leadership there, we again 
stretch into a minimum of half a dozen counties that are 
currently on board and ready to be a part of a strategic, 
collaborative effort to combat this problem.
    Ms. Jackson Lee. Would a DNA database that would take you 
directly to the list of perpetrators that dealt with just 
specifically child victims, would that be helpful to narrow to 
that extent?
    Chief Sensley. Yes, ma'am, it would be very helpful.
    Ms. Jackson Lee. Let me go back to Mr. Powell again and 
just give you the scenario that the Chairman was leading you 
to.
    You said 97 percent of the utilization is Canada and the 
United States. So that means that we are in the big side. The 3 
percent, we don't diminish, but it is certainly smaller than 
97. That means that Canada is a big player in craigslist. Is 
that my understanding, a big part of your consumer base?
    Mr. Powell. Yes.
    Ms. Jackson Lee. The challenge that you have and the 
disagreement that I have with you is that we are in a fluid and 
fairly mobile society, and so I disagree that it being on 
Canada with no restrictions--and certainly that is Canada, a 
sovereign Nation--poses an incidence problem. So I am really 
going to ask the question for you to take back to owners and 
leadership, and certainly, the idea of cooperation looks like a 
treaty issue or diplomatic question to Canada, because they are 
a sovereign Nation.
    But the fact that craigslist is on or has these Adult 
Services in Canada, it just means that I get on and I am able 
to read this, and as I am able to read it, I move around. That 
is our neighbor. So I am going to ask you to find out the 
logistics of how Craigs relates to this issue in Canada. I 
would like a response back to the Committee, because I am going 
to ask something that you are obviously are not going to be 
able to answer--is they should shut down in Canada. I am 
obviously reaching at this point.
    But what I am saying to you is that that seems like an 
accessible, easy reach for someone in the United States to be 
able to take advantage of, and it looks like you are pointing 
toward your attorney and it looks like you would like to say 
something. Let me yield to you.
    Mr. Powell. That was the statement I was going to make. I 
would defer to Ms. McDougall because, as I said earlier, there 
are some legal issues.
    Ms. Jackson Lee. Ms. McDougall.
    Ms. McDougall. Craigslist, including myself, have actively 
been meeting and in communications with the RCMP in Canada, the 
officers that are leading their anti-trafficking child 
exploitation endeavors. At this point, they have different 
considerations. They are a sovereign nation. We have don't 
believe that it is appropriate for the U.S. Policy to dictate 
what Canada's policy should be with respect to craigslist Web 
site and Adult Services. We are actively engaged in those 
discussions with Canada.
    Ms. Jackson Lee. Let me finish on this note. Do you have a 
contract between craigslist and the Canadian Government?
    Ms. McDougall. No.
    Ms. Jackson Lee. Okay. So you are a private business, and 
my understanding is that a private business sells what it wants 
to sell. So I don't understand the legal oversight that Canada 
has to tell a private business that I am going to just not 
provide you--because we all know, and we have heard, you could 
go to other sites, other various venues. But if craigslist, the 
business, said I am not willing to have this line item, Adult 
Services, what is the jeopardy as it relates to the Canadian 
Government and law?
    Ms. McDougall. Well, let's be clear that even in the United 
States, there isn't a contract between craigslist and the 
government, and there isn't currently, as was indicated, a law 
to force craigslist to----
    Ms. Jackson Lee. Right. And you did it on your own. You 
pulled it down on your own, absolutely right. You ceded to 
public opinion and pressure, and thank you for that. Why can't 
you take it off Canada?
    Ms. McDougall. My point with Canada is we believe that it 
needs to be a decision in collaboration with the Canadian 
authorities as to whether or not to do that. And that is not a 
request that has been discussed with them at this point. We are 
working actively with them to address their concerns, but so 
far, the U.S. Has told us that--various Attorneys General have 
told us that they wanted it shut down here. If Canada wants a 
different solution, we need to to respect that.
    Ms. Jackson Lee. I think I probably won't be able to pursue 
this much longer, Mr. Chairman, but let me just say I disagree 
with you. I think if a business--if GM decides not to sell 
their most profitable vehicle in Canada because they want it 
only to be for Americans--obviously that is a bad example--but 
I think they make a business decision that they want to keep 
whatever it is here to sell. It is not an equal example, but I 
do think it is a business judgment that the company makes.
    I think the other side of the coin is that what you might 
be getting is that the government would ask, Well, why are you 
doing it, and may make some kind of plea or make some kind of 
statement, whether it be positive or hostile, why are you 
taking it down? But that has not happened. I don't see the 
basis of negotiating with the government on a private entity 
that can take it down.
    Ms. McDougall. The reason--there is an actual answer to 
that, and that is that not everybody, as we have seen in some 
of the materials we submitted, a lot of advocacy groups think 
that taking down Adult Services was the wrong thing to do, 
setting aside the issue that it gives nowhere for legitimate 
Adult Services to have a forum. A lot of the advocacy groups 
feel very disappointed because it is much more difficult to 
find the victims now dispersed on these other sites that are 
noncooperative. So craigslist made the decision to do it here, 
but that does not mean it is the company's position that this 
is the right move, and that is why it has not gone ahead and 
done it in Canada, because Canada so far has not said that they 
think that that is the answer either.
    Ms. Jackson Lee. Let me just conclude by saying that we 
will probably agree to disagree, but I am not in discussions 
with Canada; and I do recognize that law enforcement has said 
that the sites have generated an opportunity for them to press 
for the victims and then find the perpetrators.
    I would say to the Chief that we might give him other 
resources to find these perpetrators or enough resources to 
find them and not proliferate sites in other places. I think 
the sites are quite destructive, and I would probably talk with 
you off record about Adult Services that are necessary that 
need to be kept in place. And maybe I am misreading what Adult 
Services are.
    But Mr. Chairman, I do thank you for the opportunity, and I 
have gleaned from the testimony, both written and the 
statements being made by all of these individuals, that we have 
work to do. And if we have any sensitivity about taking it to 
the highest level and yielding nothing, we need simply look at 
the child that has been the continuing victim for eons of our 
civilization, going beyond the boundaries of the United States. 
I would think the 21st century would be time to say enough is 
enough. I am ready to do that and I yield back to the Chairman.
    Mr. Scott. Ms. Hakes, Mr. Sensley indicated that in an area 
of about 10 million people, $2 million would make a substantial 
difference. Thirty times $10 million is $300 million, which 
would cover the country. So 30 times $2 million, $60 million. 
This is kind of a broad brush, and there is no specific plan 
involved, but it seems to me if that is the order of magnitude 
we are talking about, you and Mr. Sensley and other chiefs of 
police ought to get together and come up with a plan.
    Is there anything in the report to Congress which suggests 
where additional funding for enforcement might go?
    Ms. Hakes. Mr. Chairman, that is one of the things that we 
are working on with our National Strategy Working Group; that 
is, very specifically, we have asked all of our Federal, State 
and local partners--which include the National District 
Attorneys Association, the National Association of Attorneys 
General, a variety of Federal agencies here in Washington, and 
our State and local Internet Crimes Against Children Task Force 
commanders--we have asked that group to come up with 
recommendations to make to the policymakers; that is, the 
Attorney General and the Deputy Attorney General at the 
Department of Justice. And we are engaged in those.
    Mr. Scott. So you will have a response to his challenge 
that with a couple of million dollars they can make a 
substantial difference?
    Ms. Hakes. I am going to avoid responding to Chief 
Sensley's challenge, as he is a lot bigger than I am. However, 
what I can say is I do think that he is right, that working 
together is important and worth more than money. Money is 
clearly important when it comes to these kinds of cases, but 
more important is the will to do something about it.
    The public attention that is being paid to this issue, like 
this hearing today and the relationship that we are working 
hard on and have been working hard on, are as important, if not 
more important, than financial resources.
    Mr. Scott. I would like to thank the witnesses for their 
testimony today. Members may have additional written questions 
which we will forward to you and ask that you answer promptly 
as you can so that the answers may be made part of the record.
    Without objection, the Executive Summary of the National 
Strategy for Child Exploitation Prevention and Interdiction, a 
Report to Congress, dated August 2010, will be included in the 
record, and the hearing record will remain open for 1 week for 
the submission of additional materials.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________

    Mr. Scott. So, again, I want to thank each and every one of 
our witnesses. This has been a very powerful hearing. The 
Members gave excellent testimony, and the suggestions you have 
made I think suggest that we can do a lot more if we kind of 
focus our minds to it, and it is within the order of magnitude 
of something--in terms of resources needed, something in the 
order of magnitude we ought to be able to respond to.
    I want to thank each and every one of you. So, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 5:05 p.m., the Subcommittee was adjourned.]


























                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
